     Office of Inspector General
     Audit Report




           RCRA


RCRA FINANCIAL ASSURANCE FOR
  CLOSURE AND POST-CLOSURE
            2001-P-007
          March 30, 2001
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, DC
                                  Virginia Roll
                                  Barry Parker
                                  Cathleen Meeks
                                  Susan Barvenik
                                  Josephine Smidt
                                  Mike Prater



Region(s) covered               Region 1 (Connecticut)
                                Region 2 (New York)
                                Region 3 (Virginia)
                                Region 4 (Alabama)
                                Region 5 (Ohio)
                                Region 6 (Texas)
                                Region 7 (Missouri)
                                Region 9 (California)
                                Region 10 (Washington)



Program Office(s) Involved      Office of Solid Waste and Emergency Response
                                   Office of Solid Waste
MEMORANDUM
SUBJECT:       RCRA Financial Assurance for Closure and Post-Closure
               Audit Report No. 2001-P-007
FROM:          M E Prater
               Mike Prater, Audit Manager
                Headquarters Audit Division
TO:            Michael H. Shapiro, Acting Assistant Administrator
                Office of Solid Waste and Emergency Response

        Attached is the subject report for our review of RCRA financial assurance for closure and
post-closure care. This report contains findings that describe problems the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This audit report
represents the opinion of the OIG and the findings contained in this audit report do not necessarily
represent the final EPA position. Final determinations on matters in this audit report will be made
by the EPA managers in accordance with established audit resolution procedures. Accordingly,
the findings described in the audit report are not binding upon EPA in any enforcement
proceeding brought by EPA or the Department of Justice.

        During the exit conference, and in your response to the draft report for this review, your
office provided corrective actions, with milestone dates where applicable, for most of the
recommendations. Your response, which is included as Appendix V, also indicates that
ASTSWMO has requested that EPA discuss the report and your response to our
recommendations at their April 18 and 19 mid-year meeting. For any planned actions and
milestones that are developed as a result of the meeting, we would appreciate an updated
response within 90 days of the report date. When we receive the updated information, we will
determine whether to close this report in our tracking system.

        Appendix VI of this report identifies the report distribution. We have no objections to the
further release of this report to the public. Should you or your staff have any questions about this
report, please contact Virginia Roll of my staff on (202) 260-5101, or Carol Jacobson, Audit
Liaison, on (202) 260-7604.

Attachment
(This page was intentionally left blank.)
               EXECUTIVE SUMMARY

INTRODUCTION       Congress enacted the Resource Conservation and Recovery
                   Act in 1976 to ensure proper management of the huge
                   quantities of waste generated each year. Hazardous waste
                   treatment, storage, and disposal facilities regulated under the
                   Act must develop a plan for closing their facilities when they
                   no longer treat, store, or dispose of waste. To assure that
                   funds will be available to pay for the potentially costly facility
                   closure, facilities are required to meet certain financial
                   assurance requirements. Regulations also require financial
                   assurance for post-closure care of hazardous waste landfills,
                   involving such activities as maintenance and groundwater
                   monitoring. Similar requirements apply to Municipal Solid
                   Waste Landfills. Financial assurance regulations were
                   developed by the U.S. Environmental Protection Agency
                   (EPA) but are primarily implemented by states.

OBJECTIVES         The overall objective of our audit was to determine whether
                   financial assurance requirements and the implementation of
                   those requirements provided adequate funding for facility
                   closure and post-closure activities. We found many cases
                   where financial assurance mechanisms appeared to be
                   working as intended. However, in some cases, financial
                   assurance might not provide adequate funding to ensure the
                   facilities will not pose a threat to human health and the
                   environment. We specifically considered the following four
                   questions.

                     C     Does captive insurance satisfy requirements for
                           closure and post-closure financial assurance?

                     C     What are the risks that funds from financial assurance
                           mechanisms will not be available when needed?

                     C     Are funds being assured to cover the full period of
                           necessary post-closure monitoring and maintenance?
                     C     What can be done to improve the review process for
                           closure and post-closure cost estimates?

                                                           Report No. 2001-P-007
RESULTS IN BRIEF   We concluded that insurance policies written by captive
                   insurance companies do not provide an adequate level of
                   financial assurance for closure and post-closure. Most
                   captive insurance companies are wholly owned subsidiaries
                   in the corporation of the company they are insuring, and the
                   financial strength of the captive is dependent upon the parent
                   corporation. Therefore, if a parent company experiences
                   financial difficulties, there is insufficient assurance that the
                   captive insurance company will be able to provide needed
                   closure and post-closure funds.

                   Although the Agency has analyzed potential failure rates for
                   various financial assurance mechanisms, these analyses did
                   not include all significant risk factors. Therefore, the risks
                   that funds will not be available when needed from financial
                   assurance mechanisms – such as insurance, surety bonds, and
                   trust funds – may be higher than EPA estimated. Mechanism
                   failures can result in significant closure and post-closure
                   delays. And may result in federal or state governments
                   assuming the financial burden.

                   There is insufficient assurance that funds will be available in
                   all cases to cover the full period of landfill post-closure
                   monitoring and maintenance. Regulations require post-
                   closure activities and financial assurance for 30 years after
                   landfill closure, and a state agency may require additional
                   years of care if needed. We were told by several state
                   officials that many landfills may need more than 30 years of
                   post-closure care. However, most of the state agencies in
                   our sample had not developed a policy and process to
                   determine whether post-closure care should be extended
                   beyond 30 years, and there is no EPA guidance on
                   determining the appropriate length of post-closure care.

                   Some facilities have submitted cost estimates that were too
                   low, and state officials have expressed concerns that the cost
                   estimates are difficult to review. To improve the review
                   process, software is available that can help state programs
                   review cost estimates submitted by facilities. Several states
                   contacted were unaware of the software and relied on
                   reviewers’ judgment to evaluate estimates.



                              ii                          Report No. 2001-P-007
RECOMMENDATIONS   We recommended that EPA’s Acting Assistant
                  Administrator for Solid Waste and Emergency Response
                  provide specific guidance regarding insurance matters related
                  to financial assurance, further develop existing financial
                  assurance training materials, and facilitate the exchange of
                  financial assurance information through an Internet bulletin
                  board. We also recommended that, as resources allow,
                  criteria be developed for the appropriate post-closure care
                  time frames. Furthermore, we recommended that EPA help
                  states obtain software for reviewing closure and post-closure
                  cost estimates.

AGENCY RESPONSE   We received the Agency’s response to our draft report on
                  March 27, 2001. OSWER agreed with all of our
                  recommendation.




                            iii                        Report No. 2001-P-007
(This page was intentionally left blank.)




                   iv                       Report No. 2001-P-007
                              TABLE OF CONTENTS

                                                                                                                                   Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTER 1: INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     1
     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       2
     Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                5
     Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           7

CHAPTER 2: EFFECTIVE FINANCIAL ASSURANCE
     MECHANISMS ARE NECESSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     Corporate Financial Test Was Designed to Exclude High Risk Firms . . . . . . . . . . . . . . 10
     Independence of Events is Important for Third Party Mechanism Risk . . . . . . . . . . . . . 11
     Independence of Events is Lacking with Captive Insurance . . . . . . . . . . . . . . . . . . . . . 12
     Regulations Not Met by Captive Insurance Policies . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
     States Are Concerned About the High Risk of Captive Insurance . . . . . . . . . . . . . . . . . 14
     Reinsurance May Involve a Captive Insurance Company . . . . . . . . . . . . . . . . . . . . . . . 16
     Insurance May Be Difficult to Evaluate and Monitor . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     Assurance Risk for Some Surety Bonds May Be Higher Than Intended . . . . . . . . . . . . 18
     Trust Funds Present Risks Aside from Bank Failure Risk . . . . . . . . . . . . . . . . . . . . . . . 21
     Some Problems Found with Letters of Credit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
     Complexities in Overseeing the Financial Test . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
     Over One-Third of Sample Used Financial Test/Corporate Guarantee . . . . . . . . . . . . . 24
     Nineteen Percent in Sample Had No Financial Assurance . . . . . . . . . . . . . . . . . . . . . . . 24
     Local Government Financial Test Highest Percentage in MSWLF Survey . . . . . . . . . . . 24
     Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

CHAPTER 3: FINANCIAL ASSURANCE MAY BE NEEDED BEYOND
     THE 30-YEAR POST-CLOSURE PERIOD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     29
     RCRA Landfill and Post-Closure Care Requirements . . . . . . . . . . . . . . . . . . . . . . . . . .                                29
     Hazardous Waste Treatment Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         30
     Lack of Criteria for Extending Post-Closure Period . . . . . . . . . . . . . . . . . . . . . . . . . . .                            31
     Need for Continuing Post-Closure Care Beyond 30 Years . . . . . . . . . . . . . . . . . . . . . .                                   33
     State Implementation of Post-Closure Requirements . . . . . . . . . . . . . . . . . . . . . . . . . .                               35

                                                                    v                                   Report No. 2001-P-007
          Significant Expenditures May Be Required for Extended Post-Closure Care . . . . . . . .                                         39
          No Strategy Developed to Address GAO Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . .                             41
          Study Conducted on Subtitle D Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  41
          Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   43
          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         44

CHAPTER 4: ACCURATE COST ESTIMATES ARE
     NECESSARY FOR FINANCIAL ASSURANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            45
     EPA Region IV Studies Show That Facilities Underestimate Costs . . . . . . . . . . . . . . .                                         46
     Region IV’s Improvements to the Cost Estimating Process . . . . . . . . . . . . . . . . . . . . .                                    46
     Feedback from Users of Cost Estimating Software . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              47
     States Need to Be Informed About Cost Estimating Software . . . . . . . . . . . . . . . . . . .                                      48
     Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        48
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              49

APPENDIX I
     SAMPLING METHODS AND DATA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

APPENDIX II
     FINANCIAL TEST REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

APPENDIX III
     DISTRIBUTION OF FINANCIAL ASSURANCE MECHANISMS
     FOR HAZARDOUS WASTE LANDFILLS IN POST-CLOSURE . . . . . . . . . . . . . . 57

APPENDIX IV
     DISTRIBUTION OF FINANCIAL ASSURANCE MECHANISMS
     FOR ACTIVE MUNICIPAL SOLID WASTE LANDFILLS . . . . . . . . . . . . . . . . . . . . 59

APPENDIX V
     AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

APPENDIX VI
     REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65




                                                                    vi                                    Report No. 2001-P-007
                   ABBREVIATIONS
ASTSWMO         Association of State and Territorial Solid Waste Management Officials

EPA or Agency   U. S. Environmental Protection Agency

GAO             General Accounting Office

LDR             Land Disposal Restrictions

MPCA            Minnesota Pollution Control Agency

MSWLF           Municipal Solid Waste Landfill

OSWER           Office of Solid Waste and Emergency Response

RCRA            Resource Conservation and Recovery Act

RCRIS           Resource Conservation and Recovery Information System

TSDF            Treatment, Storage, and Disposal Facility




                                       vii                       Report No. 2001-P-007
(This page was intentionally left blank.)




                  viii                      Report No. 2001-P-007
          CHAPTER 1
          INTRODUCTION



Purpose   Before the Resource Conservation and Recovery Act
          (RCRA) was enacted in 1976, many cases of environmental
          damage occurred when hazardous waste facilities were
          abandoned by their owners. In recognition of this problem,
          the U. S. Environmental Protection Agency (EPA or
          Agency), under its authority granted by RCRA, established
          requirements on owners and operators for proper closure
          and post-closure care of hazardous waste treatment, storage
          and disposal facilities (TSDF). Financial responsibility is one
          of the requirements. Therefore, since the early 1980s,
          owners and operators of TSDFs have been required to
          establish financial assurance that funds will be available to
          properly close a TSDF and perform any necessary post-
          closure activities in the event that the owner or operator is
          unwilling or unable to conduct these activities. Financial
          assurance requirements were later extended to owners and
          operators of municipal solid waste landfills (MSWLF).

          Two Division Directors in EPA’s Office of Solid Waste
          suggested that the Office of Inspector General conduct an
          audit on financial assurance issues. The overall objective of
          our audit was to determine whether financial assurance
          requirements and the implementation of those requirements
          provide adequate funding for facility closure and post-
          closure activities. Under the objective, this audit addresses
          the following questions.

          C      Does captive insurance satisfy requirements for
                 closure and post-closure financial assurance?

          C      What are the risks that funds from financial assurance
                 mechanisms will not be available when needed?

          C      Are funds being assured to cover the full period of
                 necessary post-closure monitoring and maintenance?



                     1                          Report No. 2001-P-007
             C      What can be done to improve the review process for
                    closure and post-closure cost estimates?

Background   Congress enacted RCRA to ensure the proper management
             of the huge quantities of waste generated in the nation each
             year. Under RCRA Subtitle C, EPA promulgated
             regulations for managing hazardous wastes from generation
             to disposal. Under RCRA Subtitle D, EPA promulgated
             regulations that apply to solid wastes that are not defined as
             hazardous or are excluded from Subtitle C regulations.

             RCRA required EPA to develop standards for new
             hazardous waste TSDFs built after RCRA was enacted and
             for those TSDFs that were already in operation when RCRA
             requirements became effective (interim status facilities). To
             handle hazardous waste, a new TSDF must obtain a permit
             before it begins operating. Standards for interim status
             facilities are often similar to standards for new facilities.
             However, there are some circumstances where it would not
             be practical for an existing facility to immediately implement
             the requirements that a new facility must implement.
             Therefore, interim status regulations are designed to allow
             TSDFs, already in operation, time to implement requirements
             for permitted facilities.

             Both interim status and permitted TSDFs are required to
             develop a plan for closing their facilities when they no longer
             treat, store or dispose of hazardous waste. Facility closure
             requirements are potentially costly. To assure that funds are
             available to pay for closure, TSDFs are required to meet
             certain financial assurance requirements. Owners and
             operators of land disposal facilities are also required to
             establish a plan and financial assurance for post-closure care.
             During the post-closure care period, activities are conducted,
             such as maintenance and ground-water monitoring, to
             preserve the integrity of the disposal system and detect
             releases of hazardous waste.

             Owners and operators of TSDFs can demonstrate that funds
             are available to pay for closure and post-closure through one
             or a combination of the following financial assurance
             mechanisms.



                        2                          Report No. 2001-P-007
C      Trust Fund - If a trust fund is used, owners and
       operators are required to deposit money according to
       a phased-in schedule (known as a pay-in period). At
       the end of the pay-in period, the facility should have
       enough money set aside to cover its financial
       assurance requirements.

Under some of the other mechanisms (surety bonds and
letters of credit), owners and operators must establish a
standby trust fund. No money is deposited into the standby
trust fund unless funds must be withdrawn from the
mechanism. In that case, funds from the mechanism are
deposited in the standby trust fund and used to cover the
respective costs.

C      Surety Bond - A surety bond guarantees that closure
       and post-closure obligations will be fulfilled. There
       are two types of surety bonds:

              Payment Bond - In the event an owner or
              operator fails to fulfill closure and post-
              closure requirements, a payment bond funds a
              standby trust fund in the amount equal to the
              face value of the bond.

              Performance Bond - A performance bond
              guarantees performance of closure and post-
              closure requirements. A performance bond
              can also be paid into a standby trust fund.
              Interim status facilities may not use
              performance bonds.

C      Letter of Credit - A letter of credit is a credit
       document, issued to a TSDF by a financial institution,
       covering the costs of closure and post-closure.

C      Insurance - The owner or operator of a TSDF may
       take out an insurance policy to cover the costs of
       closure and post-closure.

C      Corporate Financial Test - If a facility meets
       corporate financial test criteria, it may satisfy
       financial assurance obligations solely on the strength
       of its financial condition. (For more information on

          3                          Report No. 2001-P-007
       Subtitle C corporate financial test requirements,
       please see the following chapter and Appendix II.)

C      Corporate Guarantee - A facility which is not able
       to meet corporate financial test criteria may arrange a
       corporate guarantee by demonstrating that its
       corporate parent, sibling corporation, or firm with a
       substantial business relationship with the owner or
       operator, meets the financial test requirements on its
       behalf.

MSWLFs are also required to establish plans and financial
assurance for closure and post-closure care of the landfill.
MSWLFs may establish financial assurance for closure and
post-closure through either one or a combination of the
above mechanisms or through additional mechanisms
allowed under Subtitle D regulations. However,
requirements for the Subtitle D corporate financial test are
somewhat different from Subtitle C requirements. (Please
see Appendix II for more details on Subtitle D corporate
financial test requirements.) Subtitle D regulations also
allow a local government financial test, local government
guarantee, state assumption of responsibility, and additional
state-approved mechanisms. Under some circumstances,
state assumption of responsibility and additional state-
approved mechanisms might also apply to Subtitle C
facilities.

C      Local Government Financial Test - As in a corporate
       financial test, a MSWLF owned by a local
       government can fulfill financial assurance
       requirements for some or all of its obligations by
       meeting local government financial test requirements.
       A local government which satisfies the financial test
       requirements may also guarantee financial assurance
       for a MSWLF it does not own or operate.

C      State Assumption of Responsibility - When the state
       assumes responsibility for MSWLF financial
       assurance, the State Director either assumes legal
       responsibility for closure and post-closure or assures
       the availability of funds from state sources for those
       requirements.


           4                          Report No. 2001-P-007
                        C      Additional State-Approved Mechanisms - The State
                               Director of an approved state program may allow
                               additional mechanisms if they meet performance
                               criteria specified in the Subtitle D regulations. In
                               brief, a state-approved mechanism must be legally
                               valid, binding, and enforceable under state and
                               federal law and ensure that sufficient funds will be
                               available in a timely fashion for costs of closure and
                               post-closure.

                        TSDFs are also required to establish financial assurance for
                        bodily injury and property damage liabilities. In addition,
                        financial assurance may be required when the facility must
                        clean-up (perform RCRA corrective action) at a
                        contaminated hazardous waste site.

                        Financial assurance requirements under Subtitle C and
                        Subtitle D are primarily implemented by states. A state must
                        become authorized by EPA to implement RCRA Subtitle C
                        regulations. In order to become authorized, a state develops
                        and submits for approval a hazardous waste program which
                        is equivalent to and consistent with the federal program and
                        provides adequate enforcement. Under RCRA Subtitle D, as
                        amended by the Hazardous and Solid Waste Amendments of
                        1984, states are required to develop permitting programs or
                        other systems of prior approval to ensure MSWLFs comply
                        with federal criteria, which include financial assurance
                        requirements. EPA is required by RCRA to determine
                        whether the state MSWLF programs comply with the federal
                        criteria. Currently, most states are authorized for RCRA
                        Subtitle C financial assurance regulations and approved for
                        Subtitle D financial assurance programs. Since requirements
                        for Subtitle C and Subtitle D financial assurance are often
                        similar, the discussions in this report apply to both Subtitle C
                        and Subtitle D facilities unless otherwise indicated.

Scope and Methodology   The Office of Inspector General conducted the fieldwork for
                        this assignment from September 1999 through January 2001.
                        This audit was performed in accordance with the
                        Government Auditing Standards (1994 Revision) issued by
                        the Comptroller General of the United States as they apply to
                        performance audits. We restricted our scope to financial
                        assurance for Subtitle C and Subtitle D facility closure and
                        post-closure. Therefore, we did not do audit work on any

                                   5                           Report No. 2001-P-007
issues exclusively associated with financial assurance for
corrective action or bodily injury and property damage. We
primarily concentrated audit work on the mechanisms that
Subtitle C and Subtitle D facilities have in common.

To accomplish our objectives, we reviewed the applicable
RCRA statute and regulations, as well as guidance and
policy documents issued by EPA. We interviewed EPA
officials in the Office of Solid Waste, the Office of
Enforcement and Compliance Assurance, and EPA Regions.
We reviewed federal and state program internal controls
relative to program operations and compliance with laws and
regulations. We selected nine states for our review:
Alabama, California, Connecticut, Missouri, New York,
Ohio, Texas, Virginia, and Washington. We chose these
states to obtain a broad national understanding of financial
assurance issues. We visited RCRA financial assurance state
programs in California, Connecticut, and Texas, where we
interviewed officials and conducted file reviews. Based on
work conducted in the three states, we developed
questionnaires and spreadsheets to collect opinions and data
from the nine state programs on financial assurance for
Subtitle C and D facilities. We also conducted phone
interviews with officials in the states. Data collected
included information relative to the states’ experiences with
financial assurance.

We selected a statistical sample of Subtitle C facilities from a
nine-state subset population in the Resource Conservation
and Recovery Information System (RCRIS) post-closure
universe. The nine states listed above were chosen for the
subset population. Data from these states represented
approximately 40 percent of the RCRIS post-closure
universe. We further restricted the population to privately
owned Subtitle C facilities in post-closure which were
expected to have established financial assurance. Since we
drew the sample from the nine-state subset population, our
projections were made to the population of nine states rather
than to individual states. RCRIS does not contain data on
financial assurance, and we only relied on RCRIS for its list
of facilities in post-closure from which we drew our sample.
We did not conduct a review of RCRIS internal controls.
We also obtained data on active MSWLF in seven of the


           6                           Report No. 2001-P-007
                       above states. (For further information on sampling methods
                       and data, please see Appendix I.)

                       We reviewed the Agency’s performance measures
                       established under the Government Performance and Results
                       Act of 1993. Financial assurance for closure and post-
                       closure is required for RCRA-permitted facilities which are
                       tracked as part of Goal 5, established for Better Waste
                       Management.

Prior Audit Coverage   There have been no prior Office of Inspector General audits
                       on RCRA financial assurance. We reviewed the General
                       Accounting Office (GAO) report, Hazardous Waste:
                       Funding of Postclosure Liabilities Remains Uncertain, June
                       1990, which includes discussions of financial assurance and
                       post-closure care. GAO stated that although EPA was
                       aware of the potential for future releases from disposal
                       facilities, it had not yet developed a strategy for addressing
                       these long-term post-closure concerns. GAO stated that
                       long delays in the evaluation of the effectiveness of current
                       waste disposal requirements have the potential to result in
                       another Superfund situation in future years.




                                  7                          Report No. 2001-P-007
(This page was intentionally left blank.)




                      8                     Report No. 2001-P-007
                                        CHAPTER 2
                        EFFECTIVE FINANCIAL ASSURANCE
                          MECHANISMS ARE NECESSARY

                                           Effective financial assurance mechanisms1 are necessary to
                                           ensure that closure and post-closure activities will be
                                           conducted when needed to protect human health and the
                                           environment. We found many cases where RCRA financial
                                           assurance mechanisms appear to be working as intended.
                                           However, we found cause for concern about some
                                           mechanisms. Since there is some risk of failure for any
                                           financial assurance mechanism, the Agency developed
                                           criteria designed to reduce mechanism failure rates to a low
                                           level. While the Agency has analyzed potential failure rates
                                           for various financial assurance mechanisms, the analyses
                                           cannot always be relied on because they did not include all
                                           significant risk factors. Therefore, some financial assurance
                                           mechanisms may have failure risks that are higher than the
                                           Agency finds acceptable. Furthermore, because of
                                           insufficient EPA guidance and the complexities of insurance,
                                           captive insurance policies have not always been sufficiently
                                           evaluated to determine whether they meet regulatory
                                           requirements.

                                           Financial assurance mechanism failures that occur when a
                                           facility owner or operator is insolvent can result in significant
                                           closure and post-closure delays, increasing the likelihood of
                                           environmental contamination and adverse human health
                                           effects. Moreover, when these failures occur, federal or
                                           state funds may have to be diverted from other public
                                           priorities since EPA or the state (and ultimately the general
                                           public) would become financially responsible for closure and
                                           post-closure.




        1
          Financial assurance requirements for Subtitle C and Subtitle D are often similar. Therefore, in this
report, unless otherwise indicated, the discussion applies to both Subtitle C and Subtitle D mechanisms.

                                                        9                               Report No. 2001-P-007
Corporate Financial Test   RCRA regulations allow a facility which meets corporate
Was Designed to Exclude    financial test requirements to satisfy financial assurance
High Risk Firm             obligations solely on the strength of its financial condition
                           and without establishing a third party mechanism or trust
                           fund. Although there is some risk of failure for firms which
                           pass the corporate financial test, the test is meant to reduce
                           the risk to a low level by screening out firms with higher
                           risks of failure. Since the risk of bankruptcy increases when
                           a firm’s net worth decreases, firms are required to have a
                           minimum of $10 million in tangible net worth to pass the
                           corporate financial test. The Agency has determined that
                           firms with less than $10 million in tangible net worth went
                           bankrupt four times more frequently than firms with tangible
                           net worth greater than $10 million. Net worth is not the only
                           corporate financial test requirement. Additional
                           requirements include financial ratios or bond ratings, which
                           make the test more difficult to pass than the net worth
                           requirement alone. (For more details on corporate financial
                           test requirements for Subtitle C and Subtitle D facilities,
                           please see Appendix II.)

                           Regulations also require annual updates of the financial test
                           to determine whether or not a firm’s financial health has
                           deteriorated because the Agency believes the financial test
                           might not be a good long-term predictor of solvency. In our
                           sample of facilities, we found examples of facilities which
                           had established financial assurance through the corporate
                           financial test and in a later year no longer qualified. EPA or
                           a state program may also require reports of financial
                           condition at any time during the year there is a reasonable
                           belief that the owner or operator no longer meets financial
                           test requirements. Federal regulations allow financial test
                           requirements to be met on behalf of a TSDF or MSWLF
                           through a corporate guarantee by another firm, such as a
                           corporate parent, sibling, or one that has a substantial
                           business relationship with the TSDF or MSWLF. The firm
                           providing the corporate guarantee becomes responsible for
                           closure and post-closure in the event of TSDF or MSWLF
                           financial failure.

                           A firm using the financial test to satisfy obligations cannot
                           guarantee it will have funds for closure and post-closure in
                           the event that it becomes insolvent. For conducting closure
                           and post-closure, the public bears the risk of the firm’s

                                     10                          Report No. 2001-P-007
                                            insolvency. A facility which cannot pass the corporate
                                            financial test must establish an alternate mechanism because
                                            the facility’s risk of financial failure, and therefore the
                                            public’s risk, is too high. Since the Agency excludes higher
                                            levels of assurance risk2 through the requirements of the
                                            corporate financial test, this implies that use of an alternate
                                            financial assurance mechanism should present no more risk
                                            to the public than the corporate financial test. However,
                                            there is evidence that some currently allowed alternate
                                            mechanisms may present assurance risks higher than the
                                            corporate financial test risk. (There is further discussion
                                            about the financial test later in this chapter.)

Independence of Events is                   For a third party mechanism to be effective in providing
Important for Third Party                   financial assurance, there must be independence between
Mechanism Risk                              the risk of facility failure and the risk that the company
                                            providing the mechanism will fail. Moreover, Agency
                                            calculations of third party mechanism risks assumed these
                                            risks were independent. However, the Agency did not take
                                            into consideration cases where there is a lack of
                                            independence between risks of facility financial failure and
                                            third-party financial failure.

                                            The risk to the public of the corporate financial test depends
                                            on the financial strength of the firm. When a third party
                                            mechanism is used to establish financial assurance, the risk of
                                            facility failure is transferred to the company providing the
                                            mechanism, and the public risk is that the facility will become
                                            insolvent and the third party mechanism will also fail. If the
                                            risks of failure are independent,3 the risk to the public that a
                                            facility and the company providing the third party mechanism
                                            (such as a bank or insurance company) will be insolvent at
                                            the same time is lower than either the risk of facility
                                            insolvency or the risk of insolvency of the company
                                            providing the third party mechanism. For example, a TSDF
                                            might establish financial assurance with an insurance policy.
                                            The estimated risk, in this case, that the TSDF will become

         2
          Assurance risk, which is the risk of concern to the Agency, is defined as “the risk of failure of financial
assurance mechanisms to provide funds for environmental obligations in a timely manner.”

         3
           Events are said to be independent if the occurrence of one event does not affect the probability of the
occurrence of the other event. When there is independence of events, the risk of both events occurring at the same
time is calculated by multiplying the separate risks together.

                                                         11                              Report No. 2001-P-007
                                           insolvent and the insurance company will fail at the same
                                           time is significantly lower than either the risk of TSDF
                                           insolvency alone or the risk of insurance company failure
                                           alone if the two risks are independent.

                                           If TSDF insolvency and insurance company failure are not
                                           independent and are positively correlated,4 the overall risk
                                           increases and may be as high as the risk of TSDF insolvency.
                                           If the TSDF does not meet corporate financial test
                                           requirements, this overall risk could be higher than the failure
                                           risk presented by a facility which passes the corporate
                                           financial test.

Independence of Events is                  We believe that insurance policies issued by a “captive”
Lacking with Captive Insurance             insurance company do not provide an adequate level of
                                           assurance because we found no independence between
                                           facility failure and failure of the mechanism. Most captive
                                           insurance companies are “pure” captives, wholly owned
                                           subsidiaries controlled by the parent company and
                                           established to insure the parent company or its other
                                           subsidiaries. Captive insurance policies have been used to
                                           establish financial assurance for many TSDFs and MSWLFs.
                                           Even though the captive may be a legally separate
                                           corporation, the financial strength of the captive is dependent
                                           upon the parent corporation. Therefore, the requirement
                                           that captives maintain a certain level of assets does not
                                           provide assurance of funds for closure and post-closure. For
                                           example, a significant portion of the assets of one captive,
                                           established by a large waste management firm, was
                                           represented by a note receivable from the parent company.
                                           Because of the financial relationship between a captive
                                           insurance company and its parent corporation, A. M. Best,
                                           which provides ratings of insurance companies, evaluates
                                           captives based on the financial strength of the parent
                                           company.

                                           Therefore, the risk of insolvency of a captive insurance
                                           company and the risk of insolvency of a facility insured by a
                                           captive are not independent but instead are positively
                                           correlated. Since the failure of one is closely tied to the


        4
          Events are positively correlated when the occurrence of one event increases the probability of the
occurrence of the other event.

                                                        12                             Report No. 2001-P-007
failure of the other, the assurance risk of using a captive
insurance policy would be too high if the insured facility or
the captive cannot pass the financial test. In addition to the
higher potential risk in allowing a firm which cannot initially
meet financial test requirements to use a captive to “self-
insure,” there is no annual review of the firm’s financial
condition by the state agency as there is for a financial test or
corporate guarantee.

The basic purpose of insurance is to distribute risks among
different parties. Typically an insurance company works to
diversify its risks by insuring many entities. Independence of
events is also important for diversifying insurance risks. For
example, when an insurance company provides fire insurance
for several buildings in one city block, it may be ruined if a
large fire destroys all the buildings on the block. When
captive insurance is used for RCRA financial assurance, there
is no diversification of risks and no independence of the
events of facility insolvencies because the facilities are all
part of the same corporation.

The Internal Revenue Service ruled that the “parent
corporation and its domestic subsidiaries, and the wholly
owned ‘insurance’ subsidiary [a captive insurance company]
though separate corporate entities, represent one economic
family with the result that those who bear the ultimate
economic burden of loss are the same persons who suffer the
loss….” A report issued by the Minnesota Pollution Control
Agency (MPCA) listed several reasons for concern about
captives. Because “the captive and the parent company are
one of the same” and the “captive insurance company is not
an independent entity or impartial third party,” the MPCA’s
staff expressed the concern that captive insurance “may be
nothing more than a promise to guarantee future coverage of
financial assurance requirements.”

Because the captive and its insured facility are members of
the same economic family, a captive insurance policy
establishes financial assurance in the same manner as the
corporate financial test without safeguards, such as the $10
million net worth and financial ratio or bond rating
requirements. RCRA regulations do not specifically address
the use of captive insurance for closure and post-closure
financial assurance, although there are some regulatory

           13                          Report No. 2001-P-007
                                 requirements for insurance policies in general. We were told
                                 there are few RCRA regulatory requirements on insurance
                                 established for financial assurance because insurance is
                                 primarily regulated by states.

Regulations Not Met by           An insurance policy established for closure and post-
Captive Insurance Policies       closure must contain a provision allowing assignment of the
                                 policy to a successor owner or operator of the facility. The
                                 captive insurance policies in our sample would not meet this
                                 requirement. The policies were issued by a pure captive
                                 which was established to insure the parent company or its
                                 other subsidiaries. The state which licensed the captive
                                 insurance company and other states which license captives,
                                 restrict captive insurance companies from insuring companies
                                 outside of the corporate family. In some states, a captive
                                 might be allowed to insure an unaffiliated company with an
                                 “existing contractual relationship.” For example, if the new
                                 owner or operator was involved in a joint venture with the
                                 facility being sold, the state might allow the policy to be
                                 transferred to the new owner or operator. This would have
                                 to be determined by the state on a case-by-case basis when
                                 the facility is sold. However, the policies in our sample
                                 cannot satisfy the provision allowing assignment of the policy
                                 to a successor owner or operator. Therefore, captive
                                 policies do not meet all financial assurance regulations. In
                                 some state programs where captive insurance policies for
                                 closure and post-closure were denied, the issue of
                                 assignment of the policy was one of the reasons for denying
                                 the captive policy. However, other state officials who
                                 expressed concerns about the risks of captive insurance for
                                 closure and post-closure did not seem to be aware of the
                                 assignment problem.

States Are Concerned About the   In some states, serious concerns about captive insurance
High Risk of Captive Insurance   have resulted in decisions to deny captive insurance policies
                                 for financial assurance on a case-by-case basis. For Subtitle
                                 C facilities, two states said they would allow captive
                                 insurance only if financial test requirements were satisfied.
                                 In addition, one state in our nine state sample, Virginia, has
                                 recently passed legislation which disallows captive insurance
                                 for RCRA financial assurance. In California, a regulation
                                 disallowing captive insurance for MSWLF is being proposed.
                                 In states that allow captive insurance, state program officials
                                 have expressed concerns about the risk of captive insurance

                                           14                          Report No. 2001-P-007
                                       and whether they have the authority to disallow a policy
                                       issued by a captive. Moreover, insurance certificates and
                                       policies do not indicate whether or not the insurance has
                                       been issued by a captive, and there are concerns about the
                                       difficulty of identifying a captive insurance policy. We found
                                       one case where the state program was unaware that
                                       insurance for financial assurance had been issued by a
                                       captive.

                                       The following table summarizes the responses we received
                                       from state officials on captive insurance in their states.


                                          Table 2.1
                          Captive Insurance for Financial Assurance
                                       State Responses

                                      Subtitle C                             Subtitle D
         STATE
                             Allowed             Denied             Allowed             Denied
     Alabama*                                       X
     California                  X                                                         X
     Connecticut               X**                                      X
     Missouri                  X**                                                         X
     New York                                       X                                     S**
     Ohio                        X                                      X
     Texas                                          X                                      X
     Virginia                                       X                                      X
     Washington                X**                                    X**

S      Would be subject to review and probably denied
*      Alabama legislature has not passed the necessary legislation and therefore, does not have a
       Subtitle D financial assurance program.. However, we were told that EPA Region IV will be
       working with the Alabama Department of Environmental Management to facilitate adopting
       financial assurance requirements.
**     No captive insurance policies for RCRA financial assurance have been identified




                                                   15                             Report No. 2001-P-007
Reinsurance May Involve a   An insurance policy issued by an independent licensed
Captive Insurance Company   insurance company may involve a captive insurance
                            company through reinsurance. In this type of reinsurance
                            arrangement there may be a lack of independence between
                            facility insolvency and insurance company failure.
                            Reinsurance occurs when the original insurer becomes an
                            insured (or reinsured) by a contract with another insurance
                            company (reinsurer). For example, an insurer might want to
                            reduce or eliminate its current potential liability for losses by
                            taking out liability insurance with another insurance company
                            (the reinsurer) to indemnify itself against liability on its own
                            policies. This may be beneficial when the risk is spread to
                            another independent licensed insurance company.

                            However, in one form of reinsurance, known as “fronting” in
                            the insurance industry, the risk may be spread to a captive
                            insurance company. Fronting insurance arrangements are
                            legal in most states. In a fronting arrangement involving a
                            captive, an independent commercial insurance company
                            would issue the policy, and the captive would become the
                            reinsurer and reimburse the independent insurance company
                            for any claims paid by the independent insurance company.
                            The fronting insurance company (original insurer) is
                            ultimately responsible for the liability if the captive cannot
                            meet its reinsurance obligation. Moreover, the fronting
                            company can require the captive insurance company to
                            collateralize the captive’s obligation for reinsurance.
                            However, if the facility and its captive become insolvent and
                            the collateral does not cover the reinsurance obligation, the
                            fronting company may experience financial problems
                            especially if more than one facility in the same corporation is
                            insured through a fronting arrangement. Since the risk is not
                            adequately diversified, there is a potential for insurance
                            company failure, as in the fire insurance block fire example
                            on page 14. In this case, the risk that the public will have to
                            fund closure and post-closure may be unacceptably high
                            because there would not be independence between the risk of
                            facility insolvency and insurance company insolvency.

                            Since there is no requirement that fronting arrangements
                            have to be disclosed in an insurance certificate or policy, a
                            state agency might not be informed when there are fronting
                            arrangements used to establish financial assurance. State
                            officials we contacted did not know whether or not fronting

                                       16                          Report No. 2001-P-007
                             arrangements involving captives had been established for
                             financial assurance for the facilities in our sample. However,
                             at least one insurance company providing insurance for
                             RCRA financial assurance advertises on the Internet that it
                             offers fronting arrangements. Disclosure of fronting
                             arrangements in insurance certificates and policies could help
                             state financial assurance programs be more effective in
                             evaluating assurance risks and whether the policies comply
                             with regulations. The National Association of Insurance
                             Commissioners adopted a Model Law in 1993 requiring
                             disclosure of fronting arrangements and disclosure of the
                             amount of collateral established for the obligation. However,
                             to date this legislation has not been adopted by any state.

Insurance May Be Difficult   When insurance is the mechanism, a state program may be
to Evaluate and Monitor      presented with a number of additional complex issues, e.g.,
                             policy terms and exclusions inconsistent with regulations,
                             potential litigation, late or missing cancellation notices, and
                             whether the insurer is qualified to write insurance in the
                             state. Since insurance is primarily regulated by states,
                             differences in state insurance regulations contribute to the
                             complexities in evaluating insurance policies. As a result,
                             insurance can be difficult to evaluate and monitor. We were
                             told that the lack of a standardized insurance policy form for
                             financial assurance adds to the difficulty. One state program
                             found it necessary to create a team with legal expertise to
                             evaluate insurance policies for RCRA financial assurance.
                             Officials from another state told us they rely on the insurance
                             certificate which must be signed by an authorized
                             representative of the insurance company. RCRA regulations
                             require the insurance certificate to state that “any provision
                             of the policy inconsistent with such regulations is hereby
                             amended to eliminate such inconsistency.”

                             Some insurance policies, issued for financial assurance,
                             require the insured facility to reimburse the insurance
                             company for any claims that are paid by the insurance
                             company for closure and post-closure. This is also known as
                             a fronting arrangement. We were told that, in this type of
                             policy, the insurance company would be liable if the facility
                             owner or operator became unable to conduct closure or
                             post-closure. One state commented that failure of an
                             insurance company to collect deductibles, i.e.,
                             reimbursements, on a large number of such policies may have

                                       17                          Report No. 2001-P-007
                          an impact on the insurance company’s ability to perform.
                          The risk of insolvency of an insurance company might
                          increase when it issues this type of policy. If a significant
                          number of such policies are issued to facilities owned by one
                          waste management company, the risk of insurance company
                          failure may not be independent from the risk of insolvency of
                          the waste management company. Another concern is the
                          difficulty in evaluating these policies to determine whether
                          they comply with financial assurance regulations.

                          In spite of insurance certificates which provide a warrant that
                          policies conform with regulations, policy terms and
                          exclusions may make it difficult for states to obtain closure
                          and post-closure funds from insurance policies without
                          litigation. Some officials mentioned their concern that
                          litigation with insurance companies might sometimes be
                          necessary. Another problem mentioned to us during our
                          audit was insurance policy cancellations which were not
                          reported to the state program. We were told by a state
                          official that in some cases, facilities would obtain insurance
                          policies for financial assurance and later cancel the policies
                          without informing the state program. The insurance
                          companies involved also did not inform the state of the
                          cancellations.

                          In August 2000, the Agency submitted a proposed rule to
                          the Office of Management and Budget which requires
                          insurance companies issuing policies for RCRA financial
                          assurance to have a high rating from insurance company
                          raters. EPA could help states further in developing solutions
                          to insurance problems. State officials told us they would like
                          more training and guidance from EPA on insurance and on
                          other mechanisms as well. They also said that better
                          communication among states would be helpful. To assure
                          low assurance risk when insurance is the mechanism and that
                          policies comply with regulations, EPA should investigate
                          complex insurance issues with states to determine states’
                          need for guidance.

Assurance Risk for Some   Agency calculations of assurance risk for surety bonds were
Surety Bonds May Be       based on predictions of firm bankruptcies and surety
Higher Than Intended      company insolvencies. However, these calculations did not
                          take into consideration litigation risk or the potential for lack
                          of independence of risks. When a surety bond is the

                                     18                          Report No. 2001-P-007
mechanism for RCRA financial assurance, the state may have
to litigate to obtain the funds. In one case, years of litigation
took place when an insurance company refused to comply
with the terms of a performance bond for facility closure. A
surety bond is usually issued by an insurance company.
However, surety bonds are not insurance, and the surety
company becomes liable for closure and post-closure only
when the owner or operator fails to comply with closure or
post-closure requirements. In this case, the state agency was
finally awarded the full amount of the bond plus interest,
$2,400,000. Delays and resources spent on litigation in
cases like this have negative effects on environmental
programs and results.

There are controls imposed by federal regulations on surety
bonds. The surety company issuing a bond for RCRA
financial assurance must be on the U.S. Treasury Circular
570 list of acceptable sureties. The Surety Bond Branch at
Treasury reviews quarterly and annual financial information
from surety companies on the list, and a surety company has
to meet financial requirements set by Treasury to stay on the
list. Furthermore, Treasury sets a limit on the amount
allowed on a bond issued by an authorized surety. Although
a surety authorized by Treasury can issue a surety bond and
then obtain reinsurance from an unauthorized surety
company, there are restrictions on the amount of reinsurance
allowed from an unauthorized surety. The amount of
reinsurance from an unauthorized surety plus the amount of
obligation retained by the authorized surety cannot go over
the bond limit Treasury sets for the authorized surety.

Although there is a limit set by Treasury on each bond
issued, there is no limit on the overall total amount of surety
bonds issued by a surety to a company. If a surety issues a
large number of bonds to facilities in one corporation, the
surety bond risk might not be adequately diversified. This is
another case where the financial failure of the corporation
might have an impact similar to the block fire described on
page 10 and could cause serious financial problems for the
surety company. There may also be the reverse case where
the financial problems of the surety could contribute to the
financial problems of a corporation using surety bonds for
many facilities. A recent case illustrates this possibility.


           19                          Report No. 2001-P-007
Recently a surety company which had issued bonds at a
competitive rate and with low collateral requirements to
many waste management companies was removed from the
Treasury Circular 570 list because it no longer met
Treasury’s financial criteria. A large national waste
management company entered Chapter 11 bankruptcy
shortly after the announcement about the surety company’s
removal from the list. The removal of this surety from the
Treasury list forced the waste management company to try
to replace financial assurance surety bonds issued by the
surety removed from the list. These surety bonds
represented approximately two-thirds of the financial
assurance obligation of the waste management company.
Since replacement surety bonds were being offered at
significantly higher rates and required higher
collateralization, the removal of the surety company had a
financial impact on the waste management company and, we
believe, may have been one of the contributing factors to its
bankruptcy. In this case, there may have been insufficient
independence between the financial condition of the surety
company, and the financial condition of the waste
management company.

Furthermore, the assurance risk, calculated by the Agency
for sureties, was based on the risk that a surety on the
Treasury list would become insolvent, rather than the risk
that the surety would be taken off the list. The risk of a
surety being removed from the Treasury list is higher than
the risk of failure calculated for firms with net worth less
than $10 million and seems to be the relevant risk for
financial assurance purposes. One state official suggested
the imposition of additional requirements on surety bonds
used for financial assurance, such as a limit on the total
amount of bonds from one surety issued to a company for
financial assurance. We believe this additional control would
help maintain independence of failure risks when surety
bonds are used for financial assurance. However, an EPA
official informed us that the Treasury Department interprets
its statute as disallowing additional federal requirements on
surety companies. More dialogue among financial assurance
program officials on this problem might be beneficial.




          20                         Report No. 2001-P-007
Trust Funds Present Risks      Regulations require that the trust operations of a trustee be
Aside from Bank Failure Risk   regulated and examined by a federal or state agency. These
                               banks have a low risk of failure, and, as determined by
                               Agency analysis, a fully funded trust fund invested
                               conservatively has virtually no risk of failure. However, the
                               major risk appears to be that a trust fund will not be fully
                               funded when the facility becomes insolvent. In our Subtitle
                               C sample, there were a significant number of facilities that
                               went out of business or into bankruptcy with partially funded
                               trust funds. Of the partially funded trust funds in our sample
                               (please see the table in Appendix III, 25 percent were on
                               schedule with their funding requirements. However, 75
                               percent of this group were funded insufficiently when most
                               of the facilities experienced financial difficulties. Facilities in
                               interim status in the early 1980s had twenty years to fund a
                               trust fund. However, under Subtitle C, a permitted facility
                               must fully fund a trust fund over the remaining operating life
                               of the facility or over the term of the initial permit which is
                               limited to10 years, whichever is shorter. Two states, New
                               York and Missouri, reported they require trust funds to be
                               funded within 5 years. In addition, New York requires new
                               firms and revenue oriented facilities to fully fund trust funds
                               when they are established. However, regulations in New
                               York allow a pay-in period of up to ten years for MSWLFs.

                               Another problem sometimes occurs with trust funds.
                               According to Subtitle C regulations, banks may only release
                               funds from the trust on approval from EPA or the authorized
                               state program. However, we were given examples during
                               our audit where banks had released funds from trust funds to
                               Subtitle C facility owners without the required approval.

Some Problems Found            We found some problems with letters of credit used to
with Letters of Credit         establish financial assurance for RCRA closure and post-
                               closure. In one sample case, a bank which had issued a letter
                               of credit for financial assurance failed. The letter of credit
                               was no longer in effect because, unlike a savings account, a
                               letter of credit is not guaranteed by the Federal Deposit
                               Insurance Corporation when a bank fails. However, this was
                               a minor problem because the facility, which was not
                               insolvent, was able to replace it with another letter of credit.
                               The outcome in this case was the expected outcome when
                               there is independence of failure risks and illustrates the way
                               financial assurance should work. When the risks of

                                          21                           Report No. 2001-P-007
                             insolvency of the facility and the bank are independent, there
                             is a low probability that they will both fail at the same time.

                             The letter of credit operations of a bank issuing a letter of
                             credit for financial assurance must be regulated and examined
                             by a federal or state agency. This requirement helps keep the
                             assurance risk of letters of credit at an acceptably low level.
                             The MPCA report stated that a letter of credit is a good
                             financial assurance mechanism because it provides full
                             coverage and can be drawn on easily. Some disadvantages
                             mentioned were that the bank may choose not to renew the
                             letter of credit and the letter of credit is carried on the
                             facility’s financial statements as a liability, which reduces the
                             facility’s borrowing power. Subtitle C regulations allow the
                             EPA Regional Administrator or authorized state program to
                             draw on a letter of credit if the bank notifies the facility it
                             will not renew a letter of credit and the facility does not
                             obtain alternate financial assurance. There is no similar
                             provision in the Subtitle D regulations. However, some
                             states, e.g., New York, may have a similar provision for
                             Subtitle D facilities.

                             Timely notifications on decisions not to renew are important.
                             A state agency did not receive the required 120-day
                             notification from a bank that it was not renewing a letter of
                             credit for a Subtitle C facility’s financial assurance.
                             However, the state found out in time before the cancellation
                             and was able to draw on the letter of credit. A different
                             problem occurred when another state agency attempted to
                             draw on a letter of credit established for financial assurance
                             and the financial institution claimed it had not issued the
                             letter of credit and refused to pay. This case has been
                             referred for appropriate legal action.

Complexities in Overseeing   In addition to the risks of company financial failures, there
the Financial Test           are financial assurance risks caused by difficulties in
                             monitoring financial tests and corporate guarantees. During
                             our field work, we discussed with state officials the
                             complexities of overseeing the corporate financial test
                             mechanism. Some of the complicating factors are economic
                             changes in the waste management industry, company
                             mergers and acquisitions, difficulties in predicting the long-
                             term survivability of individual firms, and evaluating financial
                             test submissions from firms with facilities in many states.

                                        22                          Report No. 2001-P-007
Corporate acquisitions may occur without the state program
being notified. Where the original acquired corporation may
have provided a corporate guarantee, the new corporation
might be unqualified or might be unwilling to provide a
corporate guarantee.

A firm using the financial test must supply cost estimates for
all facilities it is covering with the test mechanism. During
our file review, we found correspondence which illustrated
the problem states face in determining the accuracy of cost
estimates submitted for the financial test. The
correspondence described inaccuracies in cost estimates for
out-of-state-facilities. The out-of-state cost estimates were
supplied by a corporation using the financial test for facilities
in several states. To verify cost estimates for facilities in
other states, the state program must contact all other state
programs involved. Significant resources would be required
to do this for every financial test submission.

A state official suggested that a national database with
financial test information would help state programs oversee
the financial test mechanism. We asked other officials from
the nine states in our sample whether they thought this type
of a database would be useful. The majority of officials who
responded to our questionnaire expressed an interest in a
national database with financial assurance data and cited the
benefits of increased communication among state programs.
However, some state officials expressed concerns such as
not having the resources to maintain the data from their
states in a database. Although a national database might not
be currently feasible due to resource constraints, increased
dialogue among states would be possible and beneficial.
Officials from three state programs suggested using the
Internet for communicating financial assurance information
and discussions among states. We agree with this suggestion
and believe an inexpensive bulletin board could be
established on the Internet with access limited to state
financial assurance program officials. This suggestion is a
cost-effective interim solution for improving state
communication of financial assurance information and would
be easy and quick to implement. In addition, an Internet
bulletin board could help states share their solutions to
problems.


           23                           Report No. 2001-P-007
Over One-Third of            The complexities of the financial test are further magnified
Sample Used Financial        for state programs by the large number of facilities using
Test/Corporate Guarantee     this mechanism. In our sample of hazardous waste landfills,
                             over one-third of the facilities used the financial test or
                             corporate guarantee. In addition, the financial test had the
                             highest estimate in the ranges of closure plus post-closure
                             cost estimates in our sample, more than $107 million.
                             Therefore, adequate monitoring of financial tests and
                             corporate guarantees is essential to avoid significant future
                             financial burdens for state programs or the Agency.
                             Although captive insurance policies represent the lowest
                             percent of mechanisms in the sample, they provide very weak
                             assurance for a high average closure plus post-closure cost
                             estimate, over $13 million. Furthermore, they are used for
                             financial assurance by large national waste management
                             companies, and the probability is high that many facilities will
                             fail if one facility using captive insurance fails. Surety bonds
                             also represent a low percent of the sample but provide
                             assurance for an average cost estimate of more than $13
                             million.

Nineteen Percent in Sample   In our sample of hazardous waste facilities there were 19
Had No Financial Assurance   percent with no financial assurance. For the majority of
                             facilities with no financial assurance, the cause appears to
                             have been facility non-compliance with financial assurance
                             requirements rather than failure of mechanisms. Facility non-
                             compliance occurred in spite of enforcement efforts.
                             Financial difficulties and bankruptcies were significant
                             contributing factors to facility non-compliance. In some
                             other cases, facilities had intended to clean close (completely
                             remove waste in accordance with regulations) but were
                             found later not to have met all requirements for clean
                             closure. In this group of facilities, we were told that most
                             have low levels of soil contamination and are currently
                             performing groundwater monitoring. For more information
                             on the distribution of mechanisms and ranges, as well as
                             averages of closure and post-closure cost estimates for
                             Subtitle C facilities in post-closure, please see the table in
                             Appendix III.

Local Government Financial   In addition to data on hazardous waste facilities in post-
Test Highest Percentage in   closure, we requested data on active MSWLFs from the
MSWLF Survey                 nine states in our survey. More than 30 percent of the
                             MSWLFs we received data for used the local government

                                       24                           Report No. 2001-P-007
                                            financial test and an additional 25 percent used a state-
                                            approved mechanism.5 In contrast to hazardous waste
                                            facilities, few MSWLFs we received data for used the
                                            financial test or corporate guarantee. Not only did a high
                                            percentage of these MSWLFs use the local government
                                            financial test, but the highest estimate in the closure plus
                                            post-closure cost estimate range was for the local
                                            government financial test, close to $569 million.

                                            The local government financial test is similar to the corporate
                                            financial test in that a local government owner of a MSWLF
                                            can fulfill financial assurance requirements for some or all of
                                            its obligations by meeting stipulated bond requirements or
                                            financial ratio requirements. However, there is no net worth
                                            requirement as there is for a corporate financial test. The
                                            reason for not imposing a net worth requirement is, due to
                                            their taxing authority, local governments are believed to be
                                            less likely than private corporations to become insolvent. In
                                            contrast to the corporate financial test, which was designed
                                            to reduce the risk of bankruptcy, the local government
                                            financial test was developed to indicate whether there would
                                            be sufficient local government resources to establish another
                                            financial assurance mechanism if the local government
                                            financial condition deteriorates below acceptable levels.

                                            A local government which satisfies the financial test
                                            requirements may also guarantee financial assurance for a
                                            MSWLF it does not own or operate. (For more information
                                            on the local government financial test, please see Appendix
                                            II.) Given the large number of facilities using the local
                                            government financial test and the high estimated closure and
                                            post-closure costs associated with it, effective monitoring by
                                            states of the financial conditions of local governments using
                                            the test is important. Dialogue between states on their
                                            experiences with the local government financial test could
                                            help state programs increase their effectiveness, and an
                                            Internet bulletin board would facilitate the dialogue. (For




         5
            The local government financial test is not available to hazardous waste facilities for closure and post-
closure. Under certain circumstances, state-approved mechanisms may be available for Subtitle C facilities where
the state is not authorized for financial assurance regulations. However, all states in our sample, and most other
states, are authorized for these regulations.

                                                        25                              Report No. 2001-P-007
              more information on the MSWLF data from our survey,
              please see Appendix I and the table in Appendix IV.)

Conclusions   There are several actions the Agency should take to ensure
              financial assurance mechanism risks are kept at acceptable
              levels and to help state programs improve their oversight
              capabilities. The strength of third party mechanisms depends
              largely on independence between risks of financial failure of
              the facility and the third party providing the mechanism.
              Policies and guidance need to be developed to eliminate
              situations where independence is not maintained and to
              ensure compliance with regulations.

              Captive insurance policies in our sample do not meet the
              intent or requirements of RCRA financial assurance
              regulations. The Agency should advise state programs to
              determine whether an insurance policy issued for closure and
              post-closure meets all requirements, including the
              requirement that the policy allows assignment of the policy
              to a successor owner or operator of the insured facility. The
              state program should obtain verification from the insurance
              commissioner, in the state where the insurance company
              issuing the policy is licensed, that the policy can be assigned
              to a successor owner or operator if the facility is sold outside
              of the corporate family of the seller.

              To assure low assurance risk when insurance is the
              mechanism and that insurance policies comply with
              regulations, EPA should investigate complex insurance issues
              with states and the need for additional guidance on these
              issues.

              Most states responding to our questionnaire said they needed
              more financial assurance training from EPA. Existing
              financial assurance training materials could be developed by
              EPA for placement on the Agency’s Internet site.

              Not only can EPA help states be more effective, but states
              can help each other by sharing solutions they have developed
              to financial assurance problems. EPA’s help in promoting
              more communication between states was also requested. In
              addition to training sessions, workgroups, and roundtable
              discussion, three states suggested using the Internet to
              communicate financial assurance information. EPA should

                         26                          Report No. 2001-P-007
                  work with the Association of State and Territorial Solid
                  Waste Management Officials (ASTSWMO) to develop a
                  bulletin board on the Internet. A bulletin board could be set
                  up with access limited to state financial assurance program
                  officials and would be an easy, economical, and quick
                  method for improving communication among states.


Recommendations   We recommend that the Acting Assistant Administrator for
                  Solid Waste and Emergency Response:

                  2.1    Issue guidance to state financial assurance programs
                         that when an insurance policy is used for closure or
                         post-closure financial assurance:

                         •        the insurance policy should meet all
                                  requirements; and

                         •        the state program should obtain verification
                                  from the insurance commissioner, in the state
                                  where the insurance company issuing the
                                  policy is licensed, that the insurance policy
                                  allows assignment of the policy to the
                                  successor owner or operator of the facility, in
                                  the event that the facility is sold outside of the
                                  corporate family of the seller.

                  2.2    Investigate complex insurance issues with states and
                         determine states’ need for additional guidance on
                         these issues.

                  2.3    Develop existing financial assurance training
                         materials for placement on the Agency’s Internet site
                         to be downloaded by state programs.

                  2.4    Work with ASTSWMO to develop an Internet
                         bulletin board to increase opportunities for
                         information sharing among financial assurance
                         program officials.




                             27                           Report No. 2001-P-007
(This page was intentionally left blank.)




                      28                    Report No. 2001-P-007
                                        CHAPTER 3
            FINANCIAL ASSURANCE MAY BE NEEDED BEYOND
                 THE 30-YEAR POST-CLOSURE PERIOD

                                           Financial assurance funds may not be adequate to protect
                                           human health and the environment through the full period of
                                           post-closure care. Federal regulations require post-closure
                                           activities and financial assurance for 30 years after landfill
                                           closure. However, the 30-year time frame was based on a
                                           compromise and not on scientific research evaluating specific
                                           landfill characteristics. We found there are many examples
                                           of landfills that will need more than 30 years of post-closure
                                           care. The wastes in these landfills pose a threat to human
                                           health and the environment if they are not properly
                                           contained. Potential problems after 30 years that could
                                           disturb the integrity of landfills containing these wastes
                                           include landfill liner leaks, leachate collection system
                                           breakage, and landfill cap erosion or cracks caused by natural
                                           weathering and animal penetration.

                                           According to RCRA regulations, an agency may evaluate a
                                           landfill and require additional years of post-closure care
                                           covered by additional financial assurance. However, we
                                           found that most of the state agencies in our sample, who
                                           have the authority to extend post-closure care, have not yet
                                           developed a policy or process to evaluate these sites.
                                           Furthermore, there is no Agency guidance on how to
                                           determine the length of the post-closure care period. When
                                           it eventually becomes necessary to conduct longer term
                                           monitoring and maintenance for these landfills, financial
                                           assurance funds may not be available for extended post-
                                           closure care if the company responsible for the landfill no
                                           longer has sufficient funds or has gone out of business.

RCRA Landfill and Post-Closure             Land disposal facilities are required to meet certain
Care Requirements6                         requirements to protect the environment from the migration
                                           of contaminants. Liners and leachate collection systems are


        6
           For this chapter, we reviewed issues that Subtitle C and Subtitle D facilities have in common.
Statements are meant to apply to both Subtitle C and Subtitle D facilities unless a distinction is made.

                                                       29                              Report No. 2001-P-007
                      intended to prevent waste migration by collecting and safely
                      removing leachate before it can migrate into the
                      groundwater. The landfill cover is designed to prevent the
                      inflow of liquids, primarily rain, into the waste unit and
                      thereby reduce the amount of leachate generated. There are
                      closure and post-closure standards in addition to landfill
                      design requirements. At closure of a unit, if the owner and
                      operator leave waste in place, the units must be maintained in
                      a way that ensures they will not pose a future threat to
                      human health and the environment. After closure, there is a
                      post-closure period when owners and operators must
                      conduct monitoring and maintenance activities to preserve
                      the integrity of the disposal system and continue to prevent
                      or control releases from the disposal units. Post-closure care
                      consists of two primary responsibilities: groundwater
                      monitoring and maintaining waste containment systems.

                      Post-closure monitoring and maintenance activities include:

                      C      Maintenance of the integrity of the final cover
                      C      Operation of the leachate collection and removal
                             system until leachate is no longer detected
                      C      Maintenance and monitoring of the leak detection
                             system
                      C      Prevention of erosion or damage to the final cover
                             from run-on or run-off
                      C      Protection and maintenance of surveyed benchmarks

                      Federal regulation requires a 30-year post-closure period
                      after the date closure of the disposal facility is completed.
                      However, the time frame may be amended by the regulating
                      agency if it can be demonstrated that an extension would be
                      necessary to protect human health and the environment.
                      Owners and operators are required to provide for financial
                      assurance for the estimated cost of post-closure care at a
                      landfill facility for the post-closure care period.

Hazardous Waste       In addition to closure and post-closure requirements for
Treatment Standards   landfill design, EPA promulgated hazardous waste treatment
                      standards under Subtitle C. The treatment standards,
                      expressed as either concentration levels or required
                      technologies, are designed to substantially diminish the
                      toxicity of wastes or reduce the likelihood that hazardous
                      constituents from wastes will migrate from hazardous waste

                                30                          Report No. 2001-P-007
                                 disposal sites. The treatment standard rules known as Land
                                 Disposal Restrictions (LDR) were promulgated in stages.
                                 The first LDR rule was published on November 7, 1986.
                                 Therefore, a hazardous waste disposed of before schedule
                                 rule implementation for that specific waste and all wastes
                                 disposed of before November 1986 did not have to meet
                                 treatment standards. Hazardous wastes already disposed of
                                 do not need to meet LDRs unless they are removed from the
                                 disposal unit. Furthermore, since the treatment standards
                                 apply only to hazardous wastes regulated under Subtitle C,
                                 municipal solid wastes are not treated according to these
                                 standards.

                                 Over time, hazardous waste treatment standards promise to
                                 substantially reduce the threat from disposed hazardous
                                 wastes. A new hazardous waste landfill that has only
                                 received treated waste might not need the same post-closure
                                 care as landfills that were in operation earlier and received
                                 untreated waste. However, current active hazardous waste
                                 landfills and those in post-closure have received hazardous
                                 wastes that were not treated. The untreated hazardous
                                 wastes in Subtitle C landfills and municipal solid wastes in
                                 Subtitle D landfills may pose significant threats when they
                                 are not managed correctly.

Lack of Criteria for Extending   Landfill design requirements and post-closure maintenance
Post-Closure Period              for both Subtitle C and Subtitle D facilities are expected to
                                 prevent leakage in the short term; however, their long-term
                                 effectiveness in controlling releases of contaminants is
                                 unknown. EPA and others have stated that it is likely that
                                 some disposal facilities will leak at some period after they
                                 close. Even the most technologically advanced landfill
                                 containment systems have a finite life. However, the timing
                                 and magnitude of any resulting post-closure liabilities and
                                 effect on human health and the environment are uncertain.
                                 Many factors affect the degradation of materials, including
                                 their physical and chemical properties, the availability of
                                 oxygen and moisture within the landfill, temperature, and
                                 microbial populations. Because of the complexity and
                                 diversity of waste disposal sites in size and composition and
                                 the lack of data, it is not possible to accurately predict
                                 leakage contaminant quantities and production rates and the
                                 extent and timing of potential leakages.


                                           31                          Report No. 2001-P-007
EPA officials acknowledge the lack of criteria or scientific
basis for establishing the 30-year post-closure time frame.
Initially, the proposed post-closure care time frame for
Subtitle C hazardous waste disposal facilities had been set
for a period of 20 years. Comments expressed in a 1980
Federal Register Notice asked EPA to extend the time frame
of 20 years of post-closure for Subtitle C facilities to as long
as the wastes remain hazardous, possibly in perpetuity.
However, some who commented were concerned that an
extended time frame would place an economic burden on
smaller businesses. Therefore, EPA made the decision to
establish the time frame at 30 years, seemingly based on a
compromise of these competing interests. EPA officials we
spoke to agreed that the 30-year time frame was not based
on specific scientific criteria or research studies. The 1980
Federal Register notice further stated that a case-by-case
review would be necessary at sites due to the uncertainty
caused by a lack of extensive experience with properly
designed landfill operations. This review would allow for
extension of the post-closure time frame.

In a 1988 Federal Register notice for Subtitle D municipal
solid waste landfills, EPA officials stated that releases may
occur after the 30-year post-closure period ends, and
expressed concern that 30 years may be insufficient to detect
releases at some landfills. The notice states that “. . . even
the best liner and leachate collection systems will ultimately
fail due to natural deterioration . . . ” EPA also considered
requiring an extended post-closure care period with an
option to reduce the period only if the owner or operator
could demonstrate that a reduction would not pose any
threat to human health and the environment. However, EPA
decided this approach would be overly burdensome to the
landfill owner and operator. EPA, therefore, set the post-
closure care period at 30 years, but stated that a second
phase of reduced post-closure care beyond 30 years would
be necessary to ensure that releases are detected. The owner
or operator must continue, at a minimum, groundwater
monitoring and gas monitoring beyond the first 30 years, in
order to detect any contamination that might occur. The
1988 notice also discusses the importance of detecting
groundwater contamination in a timely fashion.



           32                          Report No. 2001-P-007
                                   Although Federal Register notices for Subtitles C and D
                                   discuss the need for a case-by-case facility review and a
                                   second phase of monitoring to ensure protection of human
                                   health and the environment, RCRA regulations do not
                                   provide enough criteria for determining this additional review
                                   or monitoring phase. The regulation for Subtitle C facilities
                                   only states that the post-closure care period may be extended
                                   if “. . . necessary to protect human health and the
                                   environment (e.g., leachate or groundwater monitoring
                                   results indicate a potential for migration of hazardous wastes
                                   at level which may be harmful to human health and the
                                   environment).” The regulation is broad enough to allow
                                   extensions of post-closure care for potential problems.
                                   However, the regulation implies that there should be
                                   indications from leachate or groundwater monitoring that the
                                   facility may present a risk to human health and the
                                   environment. Although there may be no releases or
                                   indications of releases at a landfill for the first 30 years of
                                   post-closure, there may be a potential for releases of
                                   hazardous waste in later years. For example, sites may
                                   contain materials which are highly resistant to decomposition
                                   and metals which remain toxic forever, and, as previously
                                   stated, it is unknown how effective current landfill practices
                                   will be in the long run in preventing these contaminants from
                                   being released. Also, many factors affect the amount and
                                   timing of potential leakages.

Need for Continuing Post-Closure   EPA officials have stated that based on current data and
Care Beyond 30 Years               scientific prediction, the release of contaminants may
                                   eventually occur, even with the application of best available
                                   land disposal technology. There is concern that these
                                   barriers will merely postpone the inevitable release of
                                   contaminants until after the 30-year liability has expired. As
                                   previously stated, some sites contain materials which are
                                   highly resistant to decomposition or which remain toxic
                                   forever. There have been several studies to determine the
                                   expected life span of landfill liners, and opinions on this issue
                                   vary widely. The bottom line is that not even the
                                   manufacturers claim that their liners will last forever. Many
                                   liners are only warrantied for a period of 20 years, and
                                   landfill caps are only expected to last for 20 years. Leachate
                                   collection systems have a finite life, as drains clog, and
                                   pumping capacity declines with time. Some of the older
                                   systems, which will be the first sites to end their 30-year

                                              33                          Report No. 2001-P-007
post-closure care period, were constructed without liners,
double liner protections, or leachate collection systems that
are required under today’s regulations. Potential failures at
landfills include:

C       leachate collection systems clogging,
C       leaks/ pinholes/ seams/ stress cracking/ brittle
        fractures/ deterioration/ chemicals passing through
        liners,
C       erosion of the cap by natural weathering, vegetation
        roots penetrating cover, burrowing by soil-dwelling
        mammals, cave-ins by settling of wastes,
C       seismic and general instability of the landfill, and
C       rainfall creating more leachate that migrates into
        groundwater (bathtub effect).

In our sample, we found several examples of barriers failing
during the first 30 years. Most of the states in our sample
reported animal or weather-related damage at their sites.
Repairs were required at one facility after wild pigs rooting
in the near surface soil caused erosion of the landfill cap. In
another state, black bears have been a problem. We found
other examples of landfill caps eroding, damage to caps due
to animal burrows, and a drainage channel being destroyed
after heavy downpours. Other sites needed maintenance due
to vegetation growth. Additionally, unexpected events other
than natural erosion occurred at other sites which required
maintenance activities. For example, at one site an
automobile drove through the fence surrounding the facility,
destroying the leachate treatment system. Another landfill
site required repairs after children dug under a fence into the
landfill site in order to skateboard on an old truck ramp.
Officials in one state speculated that all post-closure facilities
will need continuous surface and fence maintenance in
perpetuity.

A study performed by the MPCA’s Ground Water and Solid
Waste Division in 1998, came to the conclusion that medium
to large municipal solid waste landfills would need additional
monitoring and maintenance after the initial 30 years of post-
closure care. The report states that continual site
maintenance beyond 30 years should include fencing,
building care, and inspection equipment. Monitoring of gas
and groundwater would also be necessary to ensure

           34                           Report No. 2001-P-007
                            protection to human health and the environment. Finally,
                            mowing the cap and preventing uncontrolled rainwater and
                            snow-melt from entering the stored waste and “reactivating”
                            the leaching of waste would be required.

State Implementation of     Federal regulations require facilities to initially establish
Post-Closure Requirements   post-closure care for 30 years. For additional post-closure
                            care, EPA or the state agency must demonstrate that an
                            extension in the period is necessary to protect human health
                            and the environment. Although the burden is placed on the
                            regulating agency to demonstrate the necessity for extending
                            the post-closure care period, none of the states in our sample
                            had developed a policy to evaluate the adequacy of 30 years
                            of post-closure care at specific sites. Only two state
                            programs had extended the post-closure period beyond 30
                            years for a total of three hazardous waste facilities in the two
                            states. The following table summarizes state officials’
                            responses to our question regarding concerns about the
                            adequacy of a 30-year post-closure care time frame.




                                       35                          Report No. 2001-P-007
                                    Table 3.1
                    Extensions of 30-Year Post-Closure Care
                     for Hazardous Waste Facilities by State

                                                                   Number of
                   Extensions to 30 Year Post-Closure?           Facilities Where
        State                                                   Post-Closure Care
                       Subtitle C              Subtitle D           Extended

    Alabama                 N*                    **
    California              N                      N
    Connecticut             N                      N
    Missouri                N                      N
    New York                Y                      N                      2

    Ohio                    Y                      N                      1
    Texas                   N                      N
    Virginia                N                      N
    Washington              N                      N



*  Alabama Subtitle C program requires the full 30 years of post-closure care to be
   financially assured in each post-closure year.
** No information provided from Alabama’s Subtitle D program.

                                Although only two of the state programs we contacted have
                                extended the post-closure period beyond 30 years, several
                                state officials from Subtitle C and D programs in our nine
                                surveyed states expressed concerns that facilities may need
                                more than 30 years of post-closure care to ensure protection
                                of human health and the environment. State officials were
                                concerned that costs are likely to continue well past the
                                conventional 30-year post-closure care period since these
                                landfills will still contain contaminants. The Alabama
                                Subtitle C program requires that funds for the full 30 years of
                                post-closure be financially assured in each year. However,
                                Alabama has not yet extended the 30 years of post-closure
                                care for any Subtitle C facilities. Other state programs
                                believe that facilities will need extended care beyond 30

                                          36                           Report No. 2001-P-007
                     years, but have also not extended care at these facilities
                     beyond 30 years. Although many state officials are
                     concerned about the 30-year time frame, they explained that
                     they are uncertain about how to evaluate the adequacy of the
                     30-year time frame since there are no federal criteria
                     developed. Additionally, officials were unaware of any
                     studies performed in this area that could be used to develop
                     criteria. Officials stated that it would be useful to their
                     programs if federal guidelines provided criteria regarding
                     extending the post-closure period. There is concern that
                     without criteria to demonstrate that an extension beyond 30
                     years is necessary, states may be involved in legal battles
                     with owners and operators if they require post-closure
                     activities beyond 30 years. Landfills may become the
                     responsibility of state agencies’ in later years. The following
                     table illustrates state officials’ responses to our question
                     about the adequacy of a 30-year post-closure care period.

                           Table 3.2
State Responses on the Adequacy of 30 Years of Post-Closure Care
                 for Hazardous Waste Facilities

      State        30 Years -
     Program      Not Enough Not an Issue          Not Yet
                     Time                         Evaluated
    Alabama           X
    California        X
    Connecticut       X
    Missouri          X
    New York          X
    Ohio                                               X
    Texas                                              X
    Virginia                         X
    Washington                       X




                               37                          Report No. 2001-P-007
        According to state officials, many disposal facilities may
        require monitoring and maintenance activities in excess of 30
        years, possibly in perpetuity. Officials in one state told us
        that they believe all closed hazardous waste landfills will
        need some type of post-closure care in perpetuity. Another
        state program assumes that “virtually all” municipal solid
        waste landfills will need to extend the care period beyond 30
        years. For our nine-state sample of 178 hazardous waste
        disposal facilities in post-closure, state officials said that one
        out of five of the facilities in the sample will need care
        beyond 30 years and that it is unknown whether almost 75%
        of the hazardous waste disposal facilities in our sample will
        need care beyond 30 years because the facilities have not
        been evaluated. See Figure 3.1.

              Figure 3.1




 Site Care Beyond 30 Years
        No       Yes       Unknown

                        6.0%



                                                 20.0%




74.0%




        There is concern that states will be left with an unfunded
        liability to address any remaining post-closure care necessary
        since at the end of the 30-year time period the facilities’

                   38                           Report No. 2001-P-007
                               owners or operators may no longer have sufficient funds or
                               may be out of business. For example, a corporation in one
                               state owns a closed hazardous waste landfill that has no
                               income or assets other than the site itself, and hopes to sell
                               the landfill for industrial redevelopment prior to running out
                               of money at the end of its 30-year post-closure period. In
                               order to provide assurance that funds will be available in the
                               future to cover long-term care costs at a given facility, it will
                               be necessary to assess the need for additional post-closure
                               care while the facility is in an economic position to fund the
                               additional post-closure care.

Significant Expenditures May   To evaluate the financial impact of not establishing
Be Required for Extended       financial assurance beyond 30 years for post-closure care,
Post-Closure Care              we asked officials from the nine states in our sample to
                               identify the expected cost of post-closure monitoring and
                               maintenance in the 30th year of care for the hazardous waste
                               disposal facilities in our sample. For facilities where funds
                               had not been established for more than 30 years, post-closure
                               costs for year 30 ranged from approximately $400 to more
                               than $1 million, averaging more than $96,000 per facility.
                               Although significant expenditures are expected at these
                               facilities in year 30 of post-closure, there is no financial
                               assurance of funds for post-closure care during year 31 at the
                               same facilities. The absence of funds for monitoring and
                               maintenance of landfill facilities in year 31 could have a
                               significant adverse effect on state programs and the
                               environment.

                               Figure 3.2 on the following page illustrates potential
                               cumulative post-closure costs after the 30th year for
                               hazardous waste disposal facilities in nine states, assuming
                               that the post-closure costs in future years remain at the same
                               level as the costs in year 30 and there is no unexpected clean
                               up needed at these sites. We based our calculations on
                               facilities in our sample which were identified by their state
                               programs as needing more than 30 years of post-closure care
                               or had not been evaluated to determine whether they would
                               need additional post-closure care. In addition, all of the
                               facilities included in the calculation had financial assurance
                               established for 30 years, but none had financial assurance for
                               more than 30 years. We did not include the facilities in our

                                          39                           Report No. 2001-P-007
                          sample which do not presently have financial assurance. We
                          also excluded all facilities from Alabama in our calculation
                          because Alabama requires the full 30 years of funds to be
                          maintained through year 30.

                          Of the hazardous waste facilities included in the calculation,
                          year 2013 will be the first year a facility will reach year 31 of
                          post-closure care. We assumed that the facilities included in
                          the calculation will continue to need post-closure care for a
                          number of years after year 30 and no financial assurance
                          funds will have been established for the additional period. In
                          year 2017, the nine states would be required to spend more
                          than $2.8 million on post-closure care. By year 2030, the
                          annual burden on states, for this group in post-closure,
                          would be almost $19 million and growing. We have
                          assumed all facilities will continue to need the same amount
                          of care after year 30, and it may turn out that some will need
                          less care. However, there may be additional costs we have
                          not included, such as unanticipated clean up costs. See
                          Figure 3.2.

                                Figure 3.2


                  Cumulative Post-Closure Costs
           20


           15
Millions




           10


           5



           0
           2010    2015        2020            2025           2030            2035
                                       Years




                                      40                          Report No. 2001-P-007
                           EPA could have initially written RCRA regulations requiring
                           post-closure care in perpetuity, placing the burden of proof
                           on the facilities to demonstrate that a reduction in care would
                           not pose any threat to human health and the environment.
                           This issue was discussed in a 1988 Federal Register notice.
                           If this had been the requirement, the owners and operators
                           would have had a greater incentive to try to develop better
                           solutions to contain the waste into the indefinite future. In
                           addition, the facilities’ owners and operators who profited
                           from the operating landfills would have been required to bear
                           the costs and responsibilities for monitoring and maintenance
                           of thousands of closed hazardous and municipal solid waste
                           landfills for the full period of necessary care. Instead, future
                           generations may be left with a significant environmental and
                           financial burden.

No Strategy Developed to   In a June 1990 report, GAO examined land disposal
Address GAO Concerns       practices, and the effectiveness of the funding for these long-
                           term liabilities. In the report, Hazardous Waste: Funding of
                           Post-closure Liabilities Remains Uncertain, GAO stated
                           that although EPA was aware of the potential for future
                           releases, it had not yet developed a strategy for addressing
                           these long-term post-closure concerns. EPA responded that
                           although they shared the concern of the effectiveness of
                           long-term care, it was not a current priority in 1990. They
                           also stated that it would take many years to obtain
                           substantive information to determine the effectiveness of
                           current hazardous waste requirements in protecting
                           groundwater from contamination. Ten years have elapsed
                           since the GAO report was published, and EPA still has not
                           developed a comprehensive strategy to address these long-
                           term post-closure concerns. GAO stated that long delays in
                           the evaluation of the effectiveness of current waste disposal
                           requirements have the potential to result in another
                           Superfund situation in future years.

Study Conducted on         As previously stated, it is not possible to accurately predict
Subtitle D Facilities      leakage contaminant quantities and production rates because
                           of the complexity and diversity of many waste sites, as well
                           as other factors difficult to control. Therefore, EPA
                           currently lacks the scientific basis to develop specific criteria
                           to determine the adequacy of 30 years of post-closure care at

                                      41                          Report No. 2001-P-007
either Subtitle C or D facilities. Although wastes subject to
Subtitle C regulation have properties making them dangerous
or capable of having a harmful effect on human health the
environment, there have been no studies performed at this
time to evaluate the adequacy of 30 years of post-closure
care for Subtitle C facilities. An official in the Office of Solid
Waste (OSW) told us that studies of Subtitle C landfill
characteristics are resource intensive and OSW is not
currently funding work in this area. However, EPA’s Office
of Research and Development recently funded a study
examining the adequacy of 30 years of post-closure
monitoring at Subtitle D landfills.

The objective of the Subtitle D study, which was conducted
at North Carolina State University, was to develop a
scientific basis to determine the appropriate length of time
for post-closure care at Subtitle D landfills to ensure
protection of human health and the environment. Scientists
state that although emissions are likely to continue well
beyond 30 years, EPA lacks criteria to define an appropriate
end point for post-closure monitoring. Without criteria to
demonstrate that an extension to 30 years is necessary,
landfills permitted in the 1990s may be state agencies’
responsibilities in the 2020s. We reviewed a draft of this
study, A Critical Evaluation of Factors Required to
Terminate the Post-Closure Monitoring Period at Solid
Waste Landfills. Draft results indicate that initial criteria
were developed to determine the point at which a landfill
becomes sufficiently stable to terminate the owner’s
responsibility to monitor the site. Based on the draft results,
stability at a landfill is dependent on many complex factors.
The study found that a 30-year post-closure period may not
be adequate for a landfill to reach stability, and that
additional technical criteria will need to be established to
define leachate and gas stability. Scientists believe that an
assessment of the first group of landfills to reach the 30-year
post-closure status will need to be performed to further
develop criteria.

Initial feedback on the study indicates that EPA and the
stakeholders agree with the study’s preliminary findings, and
the scientist we spoke to believes that criteria developed

           42                           Report No. 2001-P-007
              could be incorporated into an EPA policy for Subtitle D
              facilities. As previously stated, there are no current studies
              being conducted on site characteristics of Subtitle C
              hazardous waste landfills. We were told that findings from a
              study on Subtitle D facilities would not necessarily be
              applicable to Subtitle C landfills. Since a hazardous waste
              landfill may pose a significant risk to human health and the
              environment, a study of hazardous waste landfills to
              determine an appropriate length of time for post-closure care
              should be a priority. Also, based on the draft finding of the
              Office of Research and Development-funded study, further
              research is needed to develop substantive criteria for Subtitle
              D facilities. Information from these studies should be
              incorporated into standard EPA guidance with specific
              criteria so that regulating agencies can consistently evaluate
              facilities on a case-by-case basis. Continued delays in
              evaluating the effectiveness of current waste disposal
              practices may result in harmful effects on human health and
              the environment.

Conclusions   The long-term effectiveness of current land disposal practices
              in controlling the release of contaminants is unknown. The
              extent of potential post-closure liabilities at specific facilities
              is unknown because of the current lack of available data.
              The consequence of not addressing the problem of post-
              closure care may be that the state or federal government will
              be left with the financial burden of addressing any remaining
              post-closure care necessary at these facilities. It is important
              to assess the need for additional post-closure care while the
              facility is in an economic position to fund additional post-
              closure care. Rather than passing the problem of post-
              closure care on to future generations, the problem should be
              addressed now, and solutions implemented for each landfill
              long before the end of the 30-year period. EPA needs to
              assist in ensuring that the long-term stewardship of closed
              landfills will provide maximum protection of public health
              and the environment.




                         43                           Report No. 2001-P-007
Recommendations   We recommend that the Acting Assistant Administrator for
                  Solid Waste and Emergency Response:

                  3.1    Discuss with ASTSWMO the development of a
                         methodology for state programs to use in evaluating
                         facility post-closure care time frames.

                  3.2    Conduct further studies, as resources allow, to
                         develop criteria for the appropriate post-closure care
                         time frames at Subtitle C and D landfills.




                            44                         Report No. 2001-P-007
         CHAPTER 4
   ACCURATE COST ESTIMATES ARE
NECESSARY FOR FINANCIAL ASSURANCE


          Accurate cost estimates are necessary to assure adequate
          funding for closure and post-closure activities. However,
          there is evidence that some facilities have submitted cost
          estimates that were too low. Federal regulations require that
          estimates for closure and post-closure care reflect costs of
          having a third-party conduct the required activities to ensure
          that adequate funds will be available even if the owner or
          operator goes bankrupt. State program officials have
          expressed concerns that underestimated costs could result in
          insufficient funding of financial assurance mechanisms. We
          were told that:

          C      cost estimates are difficult to review and that states
                 use different methods to review the estimates,
                 ranging from reviewer judgment to use of a standard
                 software package;

          C      monetary incentives exist for facility owners and
                 operators to underestimate costs for closure and
                 post-closure activities by lowering the cost of
                 establishing mechanisms for financial assurance (e.g.,
                 insurance premiums, surety bonds, and trust funds);
                 and

          C      it is easier for facilities to meet the requirements of
                 the financial test mechanism by underestimating
                 costs.

          Without accurate cost estimates to assure adequate funding
          for closure and post-closure activities, there is less assurance
          that human health and the environment will be protected if
          the owner or operator becomes financially insolvent and
          funds are not available for closure and post-closure. In most
          states, program officials are responsible for determining
          whether or not the cost estimates are adequate based on

                     45                          Report No. 2001-P-007
                              closure and post-closure plans. EPA has helped some states
                              become more effective in reviewing cost estimates, but other
                              states could also benefit from similar assistance.

EPA Region IV Studies         EPA Region IV conducted two studies that evaluated
Show That Facilities          facility-submitted financial assurance cost estimates. Both
Underestimate Costs           studies concluded that most of the costs evaluated had been
                              underestimated. One of the studies included a sampling from
                              all Region IV states and found that 89 of 100 facilities had
                              submitted cost estimates that were too low. The total
                              amount of underestimated costs was approximately $450
                              million for these 89 facilities. In the other study, 35 facility-
                              submitted cost estimates were evaluated from one Region IV
                              state. The study found that the majority of these facilities
                              had underestimated costs for closure and post-closure
                              activities. Underestimated closure costs totaled $91 million,
                              and underestimated post-closure costs totaled $1.7 million.
                              Both studies found that some facilities had overestimated
                              costs. However, overestimated costs do not benefit EPA or
                              state programs since additional funds established by
                              overestimating costs would not be available to cover closure
                              and post-closure for facilities that did not provide adequate
                              financial assurance.


Region IV’s Improvements to   To address the underestimated costs, EPA Region IV
the Cost Estimating Process   developed a manual entitled “Evaluating Cost Estimates for
                              Closure and Post-Closure Care of RCRA Hazardous Waste
                              Management Units.” The purpose of the manual was to
                              provide EPA and RCRA Subtitle C permit writers with a
                              consistent, accurate, and rapid method for evaluating cost
                              estimates for closure and post-closure care of RCRA
                              treatment, storage, and disposal units. The Manual states
                              that the Region determined that cost estimates for closure
                              and post-closure care for a number of facilities were
                              significantly lower than the actual costs incurred. This
                              indicates that methods used for estimating the costs of
                              closure and post-closure care may have been inaccurate.
                              Inaccurate cost estimates may be caused by underestimating
                              costs of closure and post-closure care activities or by failing
                              to cost all activities that must be conducted. Region IV also
                              initiated the development of a software tool to evaluate

                                         46                          Report No. 2001-P-007
                           financial assurance cost estimates for closure and post-
                           closure care of RCRA Subtitle C facilities. The software
                           tool incorporated the Manual’s methodology saving even
                           more time over manual methods when evaluating cost
                           estimates. EPA Region IV officials informed us that all eight
                           states in their Region had been supplied with this software
                           tool, and had used it to review facility-submitted cost
                           estimates.

                           The Manual and software incorporate Means Cost Guides as
                           the primary sources of cost information and are recognized
                           as being reliable and comprehensive sources for construction
                           cost data. Means data is often specified as the standard for
                           construction costs both in the private sector and throughout
                           government, including such agencies as the Federal Housing
                           Administration, the Department of Defense, and the General
                           Services Administration. All cost data developed by Means
                           is supported by a system of indexes that enables clients to
                           localize output automatically to any one of more than 900
                           three-digit postal codes in the United States and Canada.
                           Updates to Means Cost Guides are available on an annual
                           basis. We also were informed of another software package
                           on the market, incorporating Means data, which can be used
                           by states to evaluate closure and post-closure cost estimates.

Feedback from Users of     Officials from four states in our survey reported using cost
Cost Estimating Software   estimating software during their review process. We
                           solicited feedback from these state program officials and
                           received positive comments. Listed below is some of the
                           feedback we received:

                           •      Previous to the use of the software, the accuracy of
                                  each cost estimate review was subject to the level of
                                  expertise and knowledge of the individual inspectors
                                  performing the reviews.

                           •      Challenging cost estimates in the past was not
                                  commonplace since having to research and look up
                                  costs in different forms of documentation was very
                                  difficult and required a lot of time.



                                     47                          Report No. 2001-P-007
                                 •      Prior to the use of the software, documentation and
                                        guidance varied so much that some fuel blender
                                        facilities that were very much alike were submitting
                                        estimates for closure that varied from $100,000 to
                                        $5,000,000. Since documentation for costs at this
                                        time was so inconsistent it was very difficult to even
                                        challenge the wide discrepancies for like facilities.
                                        It’s a very good tool for evaluating and comparing
                                        like unit costs from different facilities.

                                 •      The software saves time and allows the reviewer to
                                        easily detect many deficiencies and discrepancies in
                                        facility-submitted estimates.

States Need to Be Informed       While some states reported using cost estimating software,
About Cost Estimating Software   officials in four of the nine states we contacted were unaware
                                 that software existed for reviewing cost estimates. Use of an
                                 automated software tool to review cost estimates would
                                 assist and improve state programs by providing a significant
                                 savings of time over the manual method of reviewing cost
                                 estimates. Also, the software produces a more accurate and
                                 complete method than reliance on the experience and
                                 expertise of the cost estimate reviewer. Finally, an
                                 automated program allows for a more consistent and
                                 objective baseline which can facilitate discussions with
                                 facilities on cost estimates that may need to be revised.
                                 Although the software was developed by Region IV for
                                 evaluating Subtitle C facility cost estimates, with minor
                                 modifications it can also be used to evaluate Subtitle D cost
                                 estimates.

Conclusions                      To improve the cost estimating review process, we believe
                                 that EPA should inform state Subtitle C programs and EPA
                                 Regions of the option of using cost estimating software.
                                 Furthermore, for states that request it, EPA could help those
                                 states obtain software for reviewing closure and post-closure
                                 cost estimates and any existing training for using the
                                 software. In addition, EPA should modify the cost
                                 estimating software developed in Region IV for use by state
                                 Subtitle D financial assurance programs.



                                           48                         Report No. 2001-P-007
Recommendations   We recommend that the Acting Assistant Administrator for
                  Solid Waste and Emergency Response:

                  4.1    Inform state Subtitle C and Subtitle D programs, and
                         EPA Regions of the option of using cost estimating
                         software. Furthermore, for states that request it, help
                         states obtain software for reviewing closure and post-
                         closure cost estimates. Any existing software
                         training materials should also be made available to
                         financial assurance programs requesting the software.




                            49                         Report No. 2001-P-007
(This page was intentionally left blank)




                  50                       Report No. 2001-P-007
                                    APPENDIX I
                         SAMPLING METHODS AND DATA



To collect data on facilities regulated under Subtitle C, we selected a statistical sample of Subtitle
C facilities from a nine-state subset population in the RCRIS post-closure universe. The nine
states were Alabama, California, Connecticut, Missouri, New York, Ohio, Texas, Virginia, and
Washington. Data from these states represented approximately 40 percent of the RCRIS post-
closure universe. We further restricted the population to privately owned Subtitle C facilities
which were expected to have established financial assurance. Therefore, we excluded, from the
population government-owned facilities and facilities which were coded as non-notifiers in RCRIS.
Federal and state owned RCRA facilities are not required to establish financial assurance, and non-
notifiers would not be expected to have established financial assurance because they operate
illegally. We also excluded local government Subtitle C facilities. Only one of the nine states in
the population had a significant number of local government Subtitle C landfills in post-closure.
Since we drew the sample from the nine state subset population, our projections were made to the
population of nine states rather than to individual states. RCRIS does not contain data on financial
assurance, and we only relied on RCRIS for its list of facilities in post-closure from which we drew
our sample. We did not conduct a review of RCRIS internal controls.

Initially, there were 482 facilities in our nine state subset population of facilities in post-closure.
We selected a sample of 220 facilities from this population. However, we found when we
collected data that 31 of the facilities in our sample should not have been listed in the RCRIS post-
closure universe, and two more facilities were government owned and should have been excluded
from the subset population. Therefore, our sample size was reduced to 187. Based on our sample
results, we projected the subset population size for the nine states to be 410. Please see the table
in Appendix III for the distribution of mechanisms for hazardous waste facilities in post-closure
and closure and post-closure cost ranges and averages.

Since facilities listed in RCRIS are regulated under RCRA Subtitle C and there is no EPA database
for MSWLFs regulated under Subtitle D, we asked each of the nine states to supply us with a list
of their active MSWLFs. Of the nine states, we received data from seven. We did not receive
MSWLF data from Alabama or Washington State. Alabama does not have a financial assurance
program for MSWLFs, primarily because the Alabama legislature has not passed the necessary
legislation. Washington State was in the process of collecting the data when we made our request
and had not yet completed the task when we finished our fieldwork. Therefore, the table in
Appendix IV does not include data from Alabama or Washington State. Federal regulations do
not require MSWLFs to send copies of financial assurance records to the state agency. However,


                                                  51                          Report No. 2001-P-007
some states, such as New York, require MSWLFs to send in financial assurance documentation to
the state program.

We selected statistical samples of MSWLFs in California, Ohio, and Texas, and those states
provided MSWLF data for the sample facilities. Four states- Connecticut, Missouri, New York,
and Virginia- sent us data on the universe of active MSWLFs in the state. Connecticut only had
one active MSWLF. Data sent by Virginia included estimated closure and post-closure costs for
less than half of their MSWLFs. However, Virginia identified mechanisms for all of their
MSWLFs. We decided to include Virginia MSWLF data in the table in Appendix IV after we
compared the differences in calculations when we included and excluded the Virginia data. There
were no changes in the ranges of closure and post-closure costs. The only significant change in
weighted average costs was in the local government financial test, which decreased by
approximately 10 percent when Virginia data were included. The most significant change in
mechanisms was in the number of facilities using the local government financial test, which
increased by approximately 60 percent when Virginia data were included. Please see the table in
Appendix IV for the distribution of mechanisms for active municipal solid waste landfills and
closure and post-closure cost ranges and averages.




                                               52                        Report No. 2001-P-007
                                  APPENDIX II
                        FINANCIAL TEST REQUIREMENTS



Note - Following are summaries of some of the financial test requirements. These are included for
report discussion purposes only. This information cannot be used to determine compliance with
financial test requirements. There are additional financial test requirements for reporting which
are not listed.

Corporate Financial Test - Subtitle C Requirements

To pass the financial test the owner or operator of a permitted or interim status TSDF must
satisfy the following criteria.

•      Two of following three ratios -
       C     total liabilities to net worth less than 2.0
       C     sum of net income plus depreciation, depletion, and amortization to total liabilities
             greater than 0.1
       C     current assets to current liabilities greater than 1.5;

•      Net working capital and tangible net worth each at least six times the sum of the current
       closure and post-closure cost estimates and the current plugging and abandonment cost
       estimates;

•      Tangible net worth of at least $10 million; and

•      Assets located in the United States amounting to at least 90 percent of total assets or at
       least six times the sum of the current closure and post-closure cost estimates and the
       current plugging and abandonment cost estimates.

Or, the owner or operator must satisfy the following alternate criteria.

•      A current rating for his most recent bond issuance of AAA, AA, A, or BBB as issued by
       Standard and Poor’s or Aaa, Aa, A, or Baa as issued by Moody’s;

•      Tangible net worth at least six times the sum of the current closure and post-closure cost
       estimates and the current plugging and abandonment cost estimates;

•      Tangible net worth of at least $10 million; and

                                                 53                        Report No. 2001-P-007
•      Assets located in the United States amounting to at least 90 percent of total assets or at
       least six times the sum of the current closure and post-closure cost estimates and the
       current plugging and abandonment cost estimates.


Corporate Financial Test - Subtitle D Requirements

The owner or operator of a MSWLF must satisfy one of the following three conditions:

1.     A current rating for its senior unsubordinated debt of AAA, AA, A, or BBB as issued by
       Standard and Poor’s or Aaa, Aa, A, or Baa as issued by Moody’s;

2.     A ratio of less than 1.5 comparing total liabilities to net worth; or

3.     A ratio of greater than 0.10 comparing the sum of net income plus depreciation, depletion,
       and amortization, minus $10 million, to total liabilities.

In addition, the tangible net worth of the owner or operator must be greater than:

A.     The sum of the current closure, post-closure care, corrective action cost estimates and any
       other environmental obligations, including guarantees, covered by a financial test plus $10
       million except as provided in paragraph B following.

B.     $10 million in net worth plus the amount of any guarantees that have not been recognized
       as liabilities on the financial statements provided all of the current closure, post-closure
       care, and corrective action costs and any other environmental obligations covered by a
       financial test are recognized as liabilities on the owner’s or operator’s audited financial
       statements, and subject to the approval of the State Director.

In addition, the owner or operator must have assets located in the United States amounting to at
least the sum of current closure, post-closure care, corrective action cost estimates and any other
environmental obligations covered by a financial test.

Local Government Financial Test - Subtitle D Requirements

The owner or operator of a local government MSWLF must satisfy either A or B as applicable:

       (A) If the owner or operator has outstanding, rated, general obligation bonds that are not
       secured by insurance, a letter of credit, or other collateral or guarantee, it must have a
       current rating of Aaa, Aa, A, or Baa, as issued by Moody’s or AAA, AA, A, or BBB as
       issued by Standard and Poor’s on all such general obligation bonds; or

                                                 54                            Report No. 2001-P-007
       (B) The owner or operator must satisfy each of the following financial ratios based on the
       owner’s or operator’s most recent audited annual financial statement:
              (1) A ratio of cash plus marketable securities to total expenditures greater than or
              equal to 0.05; and
              (2) A ratio of annual debt service to total expenditures less than or equal to 0.20

The owner or operator must also prepare its financial statements in conformity with Generally
Accepted Accounting Principles for governments and have its financial statements audited by an
independent certified public accountant (or appropriate State agency).

In addition, a local government is not eligible to assure its obligations under CFR 40 Sec.
258.74(f) if it:

       (A) Is currently in default on any outstanding general obligation bonds;

       (B) Has any outstanding general obligation bonds rated lower than Baa as issued by
       Moody’s or BBB as issued by Standard and Poor’s;

       (C) Operated at a deficit equal to five percent or more of total annual revenue in each of
       the past two fiscal years: or

       (D) Receives an adverse opinion, disclaimer of opinion, or other qualified opinion from the
       independent certified public accountant (or appropriate State agency) auditing its financial
       statement as required. However, the Director of an approved State may evaluate qualified
       opinions on a case-by-case basis and allow use of the financial test in cases where the
       Director deems the qualification insufficient to warrant disallowance of use of the test.




                                                55                         Report No. 2001-P-007
(This page was intentionally left blank)




                  56                       Report No. 2001-P-007
                                APPENDIX III
     DISTRIBUTION OF FINANCIAL ASSURANCE MECHANISMS
     FOR HAZARDOUS WASTE LANDFILLS IN POST-CLOSURE*



 Financial Assurance      % of      Projected #        Range of Closure and        Average of Closure
 Mechanism                Sample    in                 Post-Closure Estimated      and Post-Closure
                                    Population         Costs Combined              Estimated Costs

 Financial Test/             34%            140          $45,290 - $107,909,032           $6,640,715
 Corporate Guarantee

 Captive Insurance            3%             11        $1,781,797 - $40,574,914          $13,307,166

 Insurance                    5%             20          $320,558 - $37,142,139          $12,799,589

 Surety Bond                  4%             18          $489,517 - $68,520,883          $13,266,513

 Fully Funded Trust           5%             22            $66,780 - $1,032,411             $457,820
 Fund

 Partially Funded Trust       9%             35            $55,926 - $3,047,000             $913,872
 Fund

 Letter of Credit            21%             86           $88,757 - $67,621,604           $3,389,952

 None Established            19%             79              Data Not Available             Data Not
                                                                                            Available


* Data for this table were obtained from nine states. Please see Appendix I for more details on
  sampling methods and data.




                                                  57                            Report No. 2001-P-007
(This page was intentionally left blank)




                  58                       Report No. 2001-P-007
                                APPENDIX IV
      DISTRIBUTION OF FINANCIAL ASSURANCE MECHANISMS
        FOR ACTIVE MUNICIPAL SOLID WASTE LANDFILLS*



                                                                                      Weighted
                                                                                      Average of
                                      Projected #       Range of Closure and Post-    Closure and
 Financial Assurance     % of         in                Closure Estimated Costs       Post-Closure
 Mechanism               Population   Population        Combined                      Estimated
                                                                                      Costs

 Financial Test/               0.6%                 3      $ 3,371,140 - 13,317,263      $7,990,982
 Corporate Guarantee

 Captive Insurance             1.4%                 7      $ 4,388,539 - 13,712,781      $9,857,193

 Insurance                     6.9%             35           $ 676,487 - 20,700,960      $8,115,694

 Surety Bond                  18.9%             96            $ 27,940 - 46,483,632      $7,887,404

 Trust Fund                    6.9%             35           $ 174,000 - 22,310,485      $8,485,309

 Letter of Credit              4.9%             25            $ 85,340 - 13,249,291      $2,401,695

 Local Government             31.6%            160           $ 46,786 - 568,998,563     $10,556,183
 Financial Test

 State Approved               25.4%            129           $ 498,211 - 76,944,080     $11,283,544

 Combined                      2.6%             13         $ 2,431,600 - 31,721,165     $14,961,777

 None Established              0.8%                 4            Data Not Available        Data Not
                                                                                           Available

* Data were obtained from seven states for this table. Please see Appendix I for more details on
   methods and data.




                                               59                            Report No. 2001-P-007
(This page was intentionally left blank)




                  60                       Report No. 2001-P-007
                                  APPENDIX V
                                  AGENCY RESPONSE




                                         March 27, 2001

MEMORANDUM

Subject:       Response to OIG Draft Audit Report: “RCRA Financial Assurance for
               Closure and Post-Closure”

From:          Michael H. Shapiro, Acting Assistant Administrator/s/
               Office of Solid Waste and Emergency Response (5101)

To:            Mike Prater, Audit Manager
               Headquarters Audit Division (2443)

        The purpose of this memorandum is to transmit the Office of Solid Waste and Emergency
Response’s response to the subject Office of Inspector General (OIG) draft audit report. Thank
you for the opportunity to comment on this draft report. As you are aware, we suggested this
subject area as a topic for your investigation. In addition to these comments, the Office of Solid
Waste (OSW) has commented on previous working drafts of the report. However, those drafts
did not include recommendations or Chapter 1. Following are our specific comments to the OIG
draft recommendations.

OIG Recommendations

        Issue guidance to state financial assurance programs that when an insurance policy is used
for closure and post-closure financial assurance,

C       the insurance policy should meet all requirements; and

C       the state program should obtain verification from the insurance commissioner, in the state
        where the insurance company issuing the policy is licensed, that the insurance policy
        allows assignment of the policy to a successor owner or operator of the facility, in the
        event the facility is sold outside of the corporate family of the seller.


                                                61                         Report No. 2001-P-007
OSWER Response

        OSW will work with the Office of General Counsel and key state insurance commissioners
to determine which insurance policies allow assignment. Depending upon the outcome of these
discussions, OSW will work with interested parties, and, if appropriate, will prepare draft
guidance for comment. If you have correspondence from state insurance commissioners on the
issue of assignment that we could include in this guidance, we would appreciate receiving a copy
of it. We would also like to receive the names and domiciles of the insurers you have identified
and the owners and operators who use them. This will assist us in our communications with state
solid and hazardous waste officials, insurance commissioners, and waste companies. Depending
upon whether and when such correspondence is available, we expect that this process could take
to the end of this calendar year to determine the need for and to prepare draft guidance for
comment.

OIG Recommendations

       Investigate complex insurance issues with states and determine states’ need for additional
guidance on these issues.

        Work with the Association of State and Territorial Solid Waste Management Officials
(ASTSWMO) to develop an Internet bulletin board to increase opportunities for information
sharing among financial assurance program officials.

        Discuss with ASTSWMO the development of a methodology for state programs to use in
evaluating facility post-closure time frames.

OSWER Response

        ASTSWMO has requested that EPA discuss your report and our response to your
recommendations at their April 18th and 19th mid-year meeting. At that meeting, we intend to
request that they provide information to us about needs for additional guidance in the area of
insurance, whether they wish to implement a bulletin board, and ideas for developing
methodologies for evaluating post-closure time frames.

OIG Recommendation

        Develop existing financial assurance training materials for placement on the Agency’s
Internet site to be downloaded by state programs.




                                               62                         Report No. 2001-P-007
OSWER Response

         RCRA Hotline training material for the hazardous waste financial assurance requirements
is located at http://www.epa.gov/epaoswer/hotline/rmods.htm. This material provides an
introduction to the topic, but States sometimes request more detailed information. EPA has
responded to these requests in basically two ways. First, EPA has provided twelve hours of
satellite training on municipal financial assurance (except for the corporate test and guarantee),
that would involve conversion to files that would be too large for use on the Internet. The second
and more adaptable training materials, which EPA has presented to states in interested regions,
have been based upon overheads. The overheads generally limit the amount of information on
each screen because they are supplemented by the instructor. This also may not provide an
effective format for web based training. Before putting information on the web, OSW will ask
ASTSWMO for recommendations on the type of material, the primary audience (e.g. regulators
or owners and operators, and the presumed familiarity with the material), and the level of detail
that would be appropriate. Once we have ASTSWMO’s feedback, and as resources allow, we
will develop material for the Internet.

OIG Recommendation

        As resources allow, conduct further studies to develop criteria for the appropriate post-
closure time frames at Subtitle C and D facilities.

OSWER Response

        Currently, the OSW is reviewing information from studies funded by the Office of
Research and Development on the stability of municipal landfills and their production of leachate
and gas. We are sharing this information with the states to help inform their decisions about the
length of the post-closure period. As noted in your report, we currently have no additional
research available on hazardous waste landfills and it is difficult to predict when funding for such
studies will become available.

        We also intend to seek state help in identifying municipal solid waste landfills (MSWLFs)
that collect and analyze leachate for hazardous constituents. The goal would be to analyze long-
term data on leachate quality to help determine the time frame at which leachate no longer poses a
threat to human health and the environment. Assuming that the states decide to work with us, we
would begin work later this fiscal year, and hope to complete the analysis next fiscal year.

OIG Recommendations

       Inform state Subtitle C programs and EPA regions of the option of using cost estimating
software and help states, that request it, obtain software for reviewing closure and post-closure


                                                 63                         Report No. 2001-P-007
cost estimates. Any existing software training materials should also be made available to financial
assurance programs requesting the software.

        Modify the cost estimating software developed for Region IV so that it can be distributed
to states that request the software, for reviewing Subtitle D landfill cost estimates.

OSWER Response

        We will request that ASTSWMO ask which of their members desire copies of the
software, and we will make copies available to those states. Our understanding is that the most
recent version of the software includes information that can be used for estimating costs for
municipal solid waste landfills. Therefore, we should be able to provide this information when
states request copies.

Other Comments on the Report

       We had some comments on the other portions of the report and appreciate your
addressing those concerns at our March 22nd meeting. Accordingly, I have not included those
comments in this memorandum.

        As you may be aware, the Agency has been directed in its 2001 appropriation to conduct a
study of existing financial assurance agreements to determine if sufficient safeguards have been
properly maintained and future liabilities minimized for municipal solid waste landfills. Your
report will assist us in responding to this request. We thank you for this study.

        I would like to acknowledge the excellent cooperation we experienced working with OIG
staff during this audit. If you have any questions, please contact Dale Ruhter at (703) 308-8192.

cc: Steve Luftig
    Elizabeth Costworth
    Dale Ruhter
    Sonya Sasseville
    Bob Hall
    Bob Dellinger
    Anne Andrews




                                                64                         Report No. 2001-P-007
                               APPENDIX VI
                              REPORT DISTRIBUTION



Inspector General
Assistant Inspector General for Office of Program Evaluation
Headquarters Audit Liaison (Carol Jacobson)
Divisional Inspectors General for Audit (and sub-offices)
Acting Assistant Administrator for Solid Waste and Emergency Response
Acting Assistant Administrator for Enforcement and Compliance Assurance
Comptroller
Agency Follow-up Official
Agency Follow-up Coordinator
Assistant Administrator for Congressional and Intergovernmental Relations (1301A)
Elizabeth Cotsworth (5301W)
Johnsie Webster (5103)
Gregory Marion (2201A)
Anne Andrews (5305W)
Stephen Heare (5303W)
Robert Dellinger (5306W)
Deborah Hanlon (5306W)
Sonya Sasseville (5303W)
Dale Ruhter (5303W)
Nina Rivera (2366A)
Betsy Smidinger (2246A)
Christine McCulloch (2246A)
Peter Neves (2273A)
Mary Bell (2273A)
Robert Hall (5303W)
Eileen Larence
Abe Oberkor, Alabama
Russell Kelly, Alabama
Sue Laney, California
Richard Castle, California
Wade Cornwell, California
David Nash, Connecticut
Kevin Sullivan, Connecticut
Inga Rubeca, Connecticut
Cindy Kemper, Missouri

                                             65                        Report No. 2001-P-007
Jim Hull, Missouri
Henry Hamilton, New York
Amy Feiden, New York
Pam Allen, Ohio
Sharon Gbur, Ohio
Fanny Haritos, Ohio
Matt Boyer, Ohio
Dale Burnett, Texas
John Racanelli, Texas
Darin Rice, Washington
Randy Martin, Washington
Mary Ellen Kendall, Virginia
Virginia Butler, Virginia




                               66   Report No. 2001-P-007
